IN THE

FILED
APR 2B 2021
office

OFTHECl£R!<

SUPREME COURT OF THE
UNITED STATES

Michael N. Kelsey, J.D., Petitioner
vs.
The State of New York, Respondent

ON PETITION FOR A WRIT OF CERTIORARI
!

TO THE NEW YORK SUPREME COURT,
APPELLATE DIVISION, THIRD DEPARTMENT

PETITION FOR WRIT OF CERTIORARI i

Michael N. Kelsey
Appellant-Plaintiff Pro Se
16A4286 Hudson Correctional
50 East Court Street
Hudson, NY 12534

RECEIVED
28 USC 2403(b) may apply as statutes of the State have been drawn into question.

MAY 1 7 2021
®ffice of the clerk
qi IPREME

COURT, U.s.

QUESTIONS PRESENTED FOR REVIEW
1:

Are New York State’s procedural rules insufficiently hospitable to a Petitioner’s
constitutional claims such as here where the Petitioner was deemed to be
procedurally defaulted from raising claims on direct appeal due to the
ineffectiveness of appellate counsel?

2.

Does New York’s procedural default rules embodied in CPL 440.10[2][c] &
[3][a] violate the substantive due process rights of appellants (both on their face
and as applied)?2

3.

Is it a conflict of interest resulting in the loss of due process and/or judicial
neutrality when the same trial judge who served as both witness of witnesses and
a participant in the trial leading to conviction then serves as fact-finder and
decision-maker in post-conviction procedures in evaluating the trial for error
including those attributed to the judge or a product of his agency?

4.

Is it a violation of the fundamental fairness represented by due process when a
judge, fully aware that all pre- and mid-trial plea-offerings were for probation or
conditional discharge, then sentenced the Petitioner to a seven-year prison term
plus ten years of probation?

5.

Is it a constitutional violation of due process and/or of equal protection that
amounts to punishing a criminal defendant for his claim of innocence or the
assertion of his trial rights for a judge when setting sentencing decisions to
consider and/or base his sentencing decisions on the articulated trial
inconveniences/burdens of crime victims?

6.

Was the Petitioner subjected to cruel and unusual punishment when while still
asserting his innocence he was sentenced to seven years in prison plus ten years
probation after numerous cries - including from state agents in police and
probation - to punish him for asserting his trial rights after rejecting pre- and mid­
trial pleas that subjected him only to probation and/or conditional discharge if he
would plead guilty? Is the imprisonment of sex offenders to prison terms or
lengthy prison terms cruel or unusual punishment; or — when considering the
severe social stigma prevalent in our culture against sex offenses and their
perpetrators - is subjecting sex offender to plea-deals that require public
admissions of guilt considered a cruel punishment in violation of the shaming
practices that the Eighth Amendment and the first Congress sought to eradicate?

7.

Did the State’s imposition of a plea-bargaining system (i.e. the State’s judicial and
prosecutorial agent’s pressured expectation that Petitioner participate in plea
bargaining coupled with an alleged threats and a retaliatory sentence for asserting
his trial rights) violate or subject the Petitioner to a reduction of the privileges and

i

2

28 USC 2403(b) may apply as statutes of the State have been drawn into question.

I
it

immunities — and specifically 5th and 6th Amendment trial rights — guaranteed him
under die 14th Amendment?

%

.

8.

Was probable cause thereby rebutted and negated such that both indictment and
conviction should have been vacated when police agent and arresting officer both
admit in their trial testimony to the use of fraud in the “control call” used to indict
and convict petitioner, and when law enforcement withheld exculpatory BRADY
materials from the Prosecutor?

9.

Did the fraudulent nature of the control call conducted by the State police
sufficiently counteract the one-party consent rule such that the control call
amounted to an unreasonable search, operating without a warrant, in violation of
the Petitioner’s Fourth Amendment rights?

10.

Does the relationship of the parties in a phone call amount to a co-tenancy
relationship akin to that recognized in GEORGIA V. RANDOLPH, 547 US 303
(2006), such that it is unconstitutional for one party to a phone call to consent to a
warrantless police interception/scarch over the rcftisal of other parties and cannot
willfully conceal the police involvement in a concerted effort to circumvent the
other party’s likely objection as occurred in the warrantless 2014 police
intercepted control call conducted on the Petitioner?

It.

Does the Fifth or Fourteenth Amendments impose upon law enforcement a duty
to provide MIRANDA rights and/or to terminate an undercover, non-custodial
interrogation of a criminal suspect when such suspect articulates suicidal ideations
and/or makes credible and obvious signs, symptoms or verbal indicators of mental
instability such that continued questioning would violate fundamental standards
of fairness, the suspect’s volition, and/or the minimum level of reliability
expected of police interrogations?

511

LIST OF PARTIES
All parties appear in the caption of the case on the cover page: Michael N. Kelsey as
Petitioner; New York State as Respondent. Service has been affected upon the New York
State Attorney General.
LIST OF RELATED CASES
PEOPLE V. KELSEY. A prior petition seeking certiorari has been submitted to the U.S.
Supreme Court with docket # 20-7308, filed on 22 February 2021 and fully submitted on
5 April 2021. Docket 20-7308 follows from a denial of the NYS Court of Appeals and
Appellate Division denial of a petition seeking a Writ of Error Corum Nobis alleging
ineffective appellate counsel as it corresponded to the filing of a direct appeal denied 3
My 2019. Both this action and the former one now before the U.S. Supreme Court deal
with the same criminal appeal, the former alleging inter alia that appellate counsel was
ineffective for not first filing a post-conviction motion pursuant to state Criminal
Procedure Law 440.10 which would have allowed matter dehors the record to be
considered by the State. The instant petition follows the trial court’s rejection of the
Petitioner’s CPL 440.10 post-conviction motion based upon a ruling that Petitioner was
procedurally defaulted from having his issues and grounds for vacatur of the conviction
considered because appellate counsel did not first file a CPL 440.10 motion prior to the
direct appeal.
PEOPLE V. KELSEY - St. Lawrence County Court, Indictment # 2015-123: An active
motion seeks redaction, suppression and a protective order of Petitioner’s pre-sentence
investigation report in part due to claims of retaliatory sentencing (germane to Questions
3-6 herein). The motion can be found in Appendix D12.
PEOPLE V. LEWIN - State Habeas Corpus, Index #16417-20. This matter was filed
with the NYS Supreme Court, Columbia County-for which a Writ was issued and a
hearing heard on 5 March 2021. A subsequent decision denied Petitioner consideration of
his claims of unconstitutional statute and legal insufficiency. As with the State’s denial of
Petitioner’s post-conviction motion, here too the State based its denial and dismissal upon
a procedural default ruling that these matters should have been presented on direct
appeal. As argued in Question #2 herein presented, the State’s refusal to examine
substantive claims violates Petitioner’s substantive due process rights. Petitioner plans to
appeal this ruling, but has yet to do so.
PEOPLE V. LEWIN - Federal Habeas Corpus, Index # 9:20-CV-01211-LEK: Filed in
the District Court of the Northern Department of New York in September 2020, this case
was dismissed without prejudice in December 2020 based upon a ruling that Petitioner
had not yet exhausted his state remedies. This federal habeas case was resubmitted in late
March 2021 following state exhaustion of remedies, with a new index number.
PEOPLE V. LEWIN - 2nd Circuit Court of Appeals, Index # 21-246: This case follows
the above District Court’s December 2020 dismissal of Petitioner’s federal habeas corpus

iv

■

iI

petition arguing inter alia that under 28 USC 2254(b)(1) Petitioner’s claim to inadequate
state appellate procedures overrides any state exhaustion pre-requisites, such that
dismissal was improper.

!i
1:

I

PEOPLE V. RUTLEDGE - NYS Supreme Court, Dutchess County, Index #: 202100007. This matter included in Appendix D1 was filed against the arresting officer
alleges BRADY violations inter alia. It was dismissed in March 2021 for which a Notice
of Appeal has been filed.

I

PEOPLE V. DUWE - NYS Supreme Court, Oneida County and Columbia County. This
lawsuit alleging fraud against the police agent, relevant to Questions 7-10 presented
herein can be found in Appendix D8. A state case law disallowing case transfer when a
motion for summary judgment is pending has raised a jurisdictional issue to this case
wherein a motion is scheduled to go before the Court in Oneida County in April 2021,
while the Columbia County court dismissed the suit in March.
PEOPLE V. CATENA, NETHAWAY AND DIFIORE - NYS Supreme Court, Columbia
County with Oneida County Index # CA2020-001577 has been stayed since August
2020.
TABLE OF AUTHORITIES
7

ARGUMENT #
CASES
5
ALBUQUERQUE V. BARA. 628 F.2D 767 (2nd Cir. 1980)...................
5
ASHBY V. WYRICK, 693 F.2D 789 (8th Cir. 1982)............................
32
BELLAMY V. CITY OF NEW YORK, 914 F.3d 727 (2nd Cir. 2019) ...
;. . 13
BERGER V. UNITED STATES, 255 US 22........... .............................
12
BERGER V. UNITED STATES, 295 US 78..........................................
20,21
BERTHOFF V. UNITED STATES, 140 F.Supp.2d 67 (D. Mass 2001)..
39
BLACKBURN V. ALABAMA, 361 US 199 (1960)...............................
17
BLACKLEDGE V. PERRY, 417 US 21 (1974)................................
19
BORDERKIRCHER V. HAYES, 434 US 357 ........................................
.4,9
BRADLEY V. MEACHUM, 418 F.2d 338 ...........................................
10
CAREY V. POPULATION SERVICES INTL, 431 US 678 (1977)........
14, 19
CHAFFIN V. STYNCHCOMTE 412 US 32 (1973)........... ..................
6
COLEMAN V. THOMPSON, 501 US 722 (1991)................. ..............
27
COLON V. CITY OF NEW YORK, 60 NY.2d 82..................... ...........
38,39
CONNELLY V. COLORADO, 479 US 157 (1986)..............................
14
CORBITT V. NEW JERSEY, 439 US 212................. .............. ...........
32
COSTELLO V. MILANO 20 F.SUPP 3d 406.......................................
DESHANEY V. WINNEBAGO COUNTY DEPT. OF SOCIAL SERVICES, 489 US
10
189(1989)...... ......... ................... ............................................
,
5
DOUGLAS V. ALABAMA, 380 US 415 (1965).....................
. .31
ELKINS V. SUMMIT COUNTY, OHIO, 615 F.3d 671 (2010).
26
ELKSNIS V. GILLIGAN, 256 F.SUPP 244 ........ ........... .........

v

1
i!

1

f

!
:

i

9, 10
FOUCHA V. LOUSIANA, 504 US 71................................................
28
FRANKS V. DELAWARE, 438 US 154 (1978)................................ .
12 '
FRISCHLING V. SCHRANK, 260 NY.2d 537 ....................................
,., »iii, 35, 36
GEORGIA V. RANDOLPH, 547 US 103 (2006)........... ....................
24
GLASSER V. UNITED STATES, 315 US 60 [1942]............. .
23
HARMEL1N V. MICHIGHAN, 501 US 957 .......................................
5
HOFFMAN V. ARAVE 336 F.3d 523 (9th Cir. 2001)....................
32
HUDSON V. COUNTY OF DUTCHESS 2015 WL 7288657 ..............
9,10
HURD V. FREDENBURGH, 984 F.3D 1075 (2nd Cir. 2021)................
32
KATZ V. UNITED STATES, 389 US 347 (1967)..............................
31
KEUHL V. BURRIS, 173 F.3d 646 (8th Cir. 1999)..........................
31
KYLES V. WHITLEY 514 US 419 (1995)....................................... .
34
LILY V. WEST VIRGINIA, 29 f.2D 61 (4th Cir. 1928).....................
32
LISTON V. COUNTY OF RIVERSIDE, 120 F.3D 965 (9th Cir. 1997)
LOCAL 342, LONG ISLAND PUB. SER. EMPS. V. TOWN BD. OF TOWN OF
10
HUNTINGTON, 31.F.3D 1191 (2ndCir. 1994)......................................
MAPES V. COYLE, 171 F.3d408 (6th Cir. 1989)................................
8
20
MCDONALD V. STATE, 751 S0.2d 56)............................................
. 31
MOLDOWAN V. CITY OF WARREN 578 F.3d 388 (6th Cir. 2009),.,
28
MOONEY V. HOLOHAN, 294 US 109..................... .....;......... .
31
NEWSOME V. MCCABE, 256 F.3d 748 .............................................
14, 19
NORTH CAROLINA V. PEARCE, 395 US 711..................................
5
NUNES V. MUELLER, 2003 WL 22833789 ........................................
9
PEOPLE V. BELL, 3 Misc.3d 773 (Sup. Ct. Bronx Cty, 2003)..............
14
PEOPLE V. BROWN, 70 Ad.2d 505 (lsl Dept. 1970)............. .............
10
PEOPLE V. COOKS, 67 NY.2D 100 (1986),......................................
15
PEOPLE V. COSME, 203 Ad.2d 375, 610 NYS.2d 293 (2d Dept. 1994)
34
PEOPLE V. HANLON, 36 NY.2d 549.................................... .............
33
PEOPLE V. HOPKINS, 93 Misc.2d 501 (1978)................. ..................
PEOPLE V. JACKSON, 125 AD.3D 1002 ........................................... ........... 32, 35
PEOPLE V. MARTINEZ, 26 NY.3D 196 (2015)................ ................. .. .15, 16,17,22
. 17
PEOPLE V. MILLER, 65 NY.2D 502 (1985)................... ...........
...12
PEOPLE V. MOTT, 94 Ad.2d 415 ,.....................................................
20
PEOPLE V. PATTERSON, 483 NYS.2d 55 (App div. 1984)...............
33,35
PEOPLE V. PHILLIPS, 55 AD.2D 661................................................
34
PEOPLE V. ROBERTS, 601 P.2D 654 (Colo. Ct. App. 2000).............
,..33,35
PEOPLE V. ROSS, 118 AD.3D 1321.......................................... .
34
PEOPLE V. SPINELLI, 35 NY.2d 77,................................
12
PEOPLE V. STEINHARDT, 9 NY.2d 267 ,........................................ .
39
PEOPLE V. TARSIA, 67 Ad.2d 210...................................... ............
31
POVENTUD V. CITY OF NEW YORK, 750 F.3d 121 (2nd Cir. 2014) ...
32
PYLE V. KANSAS, 317 US 213 (1942)..................... ..;......................
12
QUERCIA V. UNITED STATES, 289 US 466).............................. .
10
RENO V. FLORES, 507 US 292 (1993)........................ ........................
27
RENTAS V. RUFFIN, 816 F.3D 214 (2NO Cir 2016).................. ............
6
ROE V. FLORES-ORTEGA, 528 US-470 (2000)..................... ..............

vi

!

i

i

!

,23
RUMMEL V. ESTELLE, 445 US 263 ...........................................
SHOPLAND V. COUNTY ONONDAGA, 154 Ad.2d 1941..........
27,31
32
SILVERMAN V. UNITED STATES, 365 US 505 .........................
SIMMONS V. REYNOLD, 898 F.2d 865 (2nd Cir. 1990)].............
2
28, 29, 36, 38
SPANO V. NEW YORK, 360 US 315........................................
STATE V. SCALF, 710 NE.2d 1206 (Ohio Ct. of App 1998)........
............... 20
STRICKLAND V. WASHINGTON, 466 US 668 (1984).............
7
12,
26
TUMEY V. OHIO, 273 US 510.....................................................
6
ULSTER COUNTY V. ALLEN, 442 US 140..........................
33
UNITED STATES V. ARCHER, 486 F.2d 670 (1973)..................
UNITED STATES V. AUSTIN, 2020 WL 6155366.......................
.40
40
UNITED STATES V. BETTES, 229 F.Supp.2d 1103 (D.Or. 2002)]
UNITED STATES EX RELE MCGRATH V. LAVALEE 319 F.2D 308 (2nd Cir. ‘63) 14
14, 20
UNITED STATES V. HARRIS, 635 F.2d 526 ..................................
26
UNITED STATES V. LOGAN, 998 F.2d 1025 .................................
32
UNITED STATES V. VALENZUELA-BERNAL, 458 US 858 (1982)
26
UNITED STATES V. WERKER, 535 F.2d 198 (2nd Cir. 1976)........
32,35
UNITED STATES V. WHITE, 401 US 745 ......................................
4,6
WAINWRIGHT V. SYKES, 433 US 72 (1977) ..................................
WALKER V. CITY OF N.Y., 974 F.2d 292 (2d Cir. 1992).................
31
34
WALKER V. COMMONWEALTH, 127 S.W.3D 596 (KY 2004) ....
9, 10
WASHINGTON V. GLUCKSBERG, 521 US 702 (1997)..................
WEAMS V. UNITED STATES 217 US 349 ......................................
21
WISCOVITCH ASSOCIATES LTD. V. PHILIP MORRIS COMPANIES, 193 Ad.2d
542
36
9
ZINERMON V. BURCH, 494 US 113 (1990)

NEW YORK STATUTES
22 NYCRR 100.2(1)........
22 NYCRR 100.3(b)(4)
Law60.45(2)(b)(l)&(2). .
CPL 210.20[3]................
CPL 255.20[2].................
CPL 440.10[2][a]........... ..
CPL 440.10[2][c].............
CPL 440.10[3] [a].............

11
11
........27,31
11
11
............. 3,4,8
..3,4, 9,10,11
...4,6, 7, 9, 11

OTHER AUTHORITIES
Davis, D. & Leo, R.A., Interrogation-Related Regulatory Decline: Ego Depletion,
Failures of Self-Regulation, and the Decision to Confess, Psychology, Public Policy and
.30
Law 18, 673-704
Edwards, William and Hensley, Christopher, “Restructuring Sex Offender Sentencing: A
Therapeutic Jurisprudence Approach to the Criminal Justice System Process.” 2001,.. 22

vn

■

Fisher, George, Plea Bargaining's Triumph: A History of Plea-Bargaining in America . ,
............................ ......................................... ................................................... 21,23
11
Frank, Jerome, Law and the Modem Mind
Gudjansson, Gisli H., The Psychology of False Confessions: Forty Years of Science and
Practice,
30
Gudjansson, Gisli H. & Clark, N.K., Suggestibility in Police Interrogations: A Social
Psychological Model, Social Behavior. 1,
29, 30
Joh, Elizabeth R., Breaking the Law to Enforce It; Undercover Police Participation in a
Crime. (62 STNLR 155)
34
Kassin, S.M. & Wrightsman, L.S. (Eds.) The Psychology of Evidence and Trial
38
Procedures. London: Sage, 1985
Klein, Richard, Due Process Denied: Judicial Coercion in the Plea Bargaining Process . .
21
Leo, R.A., Police Interrogations in America: A Study of Violence. Civility and Social
Change. PhD Thesis, Univ. of California at Berkley
39
Munsterberg, Hugo, On tire Witness Stand. 1908 ..
30,38
Ofshe 7 Leo, R.A., The Decision to Confess Falsely: Rational Choice and Irrational
Action. Denver Univ. Law Rev. 74, 979-1122, 1997
30

viii

TABLE OF CONTENTS
• OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS CITED

1
.2

STATEMENT OF THE CASE
ARGUMENTS
I.

THE
STATE’S
REFUSAL
TO
GIVE
SUBSTANTIVE
CONSIDERATION
TO
PETITIONER’S
POST-CONVICTION
GROUNDS FOR RELIEF WAS INHOSPITABLE TO PETITIONER’S
FEDERAL RIGHTS PARTICULARLY WHEN THE COURT
IGNORED INEFFECTIVE ASSISANTANCE OF APPELLATE
3
COUNSEL CLAIMS AS CAUSE FOR THE DEFAULT
II.
STATE STATUTES THAT DENY CONSIDERATION OF
DEPRIVATION OF LIBERTY CLAIMS SHOULD BE SUBJECTED TO
STRICT SCRUTINY SO AS TO PROTECT THE SUBSTANTIVE DUE
PROCESS RIGHTS OF THE ACCUSED AND WRONGFULLY
8
CONVICTED
III.
IT IS BOTH A CONFLICT OF INTEREST AND A DENIAL OF DUE
PROCESS FOR THE SAME JUDGE THAT PRESIDED AT TRIAL TO
RULE ON POST-CONVICTION MOfIONS
.11
IV.
PETITIONER WAS RETALIATED AGAINST WITH EXCESSIVE
AND PUNITIVE PUNISHMENT AS THE ASSERTION OF HIS TRIAL
13
RIGHTS IN VIOLATION OF DUE PROCESS
V.

PETITIONER WAS RETALIATED AGAINST WITH EXCESSIVE
AND PUNITIVE PUNISHMENT AND DENIED EQUAL
PROTECTION OF THE LAW WHEN THE COURT SOUGHT AND
BASED PUNISHMENT AS COMPENSATION FOR TRIAL
16
INCONVENIENCES OF “VICTIMS”

IX

I

VI.
PETITIONER WAS RETALIATED AGAINST WITH EXCESSIVE
AND PUNITIVE PUNISHMENT FOR EXERCISING HIS TRIAL
20
RIGHTS IN VIOLATION OF THE EIGHTH AMENDMENT
VII.
THE STATE’S RELIANCE ON PLEA-BARGAINING AS ITS
NORMAL MODE OF PROCEEDING THREATENED AND/OR
DEPRIVED PETITIONER OF HIS TRIAL RIGHTS AND SUBJECTED
HIM TO RETALIATION IN CONFLICT AND IN OPPOSITION TO
23
THE CONSTITUTION’S GUARANTEES
VIII.
WHEN LAW ENFORCEMENT ADMITTED TO USE OF FRAUD IN
THE MANUFACTURE OF MATERIAL EVIDENCE USED TO
OBTAIN INDICTMENT AND CONVICTION, PROBABLE CAUSE
WAS NEGATED SUCH THAT PETITIONER’S INDICTMENT AND
27
CONVICTION MUST BE VACATED
IX.
THE PRESENCE OF FRAUD NEGATES USE OF THE ONE-PARTY
CONSENT RULE SUCH THAT THE CONTROL CALL RECORDING
USED TO INDICT/CONVICT PETITIONER AMOUNTED TO A
WARRANTLESS SEARCH IN VIOLATION OF THE FOURTH
32
AMENDMENT
X.

THE ONE-PARTY CONSENT RULE RELIED UPON BY LAW
ENFORCEMENT TO MANUFACTURE EVIDENCE AGAINST THE
PETITIONER CAN NO LONGER LEGITIMATELY BE RECONCILED
34
WITH CONSTITUTIONAL JURISPRUDENCE
XI.
VERBAL OR OTHER OBSERVABLE SYMPTOMS THAT A
CRIMINAL SUSPECT IS MENTALLY UNSTABLE IMPOSES A
HEIGHTENED DUTY ON LAW ENFORCEMENT AND JUDICIAL
OFFICERS TO AVOID COMPELLING THE SUSPECT FROM
36
SERVING AS A WITNESS AGAINST THEMSELVES
PRINTING SPECIFICATION STATEMENT

x

41

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment(s)
below:
OPINIONS BELOW
This petition for certiorari seeks the U.S. Supreme Court’s review of the State of
New York’s denial of the Petitioner’s post-conviction motion sought pursuant to state
statute, Criminal Procedure Law 440.10. The Petitioner’s motion is located in Appendix
CIO.
The motion opinion of the trial court that denied this motion is located in
Appendix A6.
The highest court to review this denial was the New York State Supreme Court,
Appellate Division, Third Department. Their refusal to grant leave is located in Appendix
A9.
JURSIDICTION
The date on which the highest state court decided my case was 11 March 2021. A
copy of the decision appears at Appendix A9.
The jurisdiction of this Court is invoked under 28 USC 1257(a).
CONSTITUTIONAL AND STATUTORY PROVISIONS CITED
Amendment IV, Constitution of the United States;
Amendment V, Constitution of the United States;
Amendment VI, Constitution of the United States;
Amendment VIII, Constitution of the United States;
Amendment XIV, Constitution of the United States;
NY CPL 440.10[2]ja] - see Appendix B5;
NY CPL 440.10[2][c] - see Appendix B5;
NY CPL 440.10[3][a] - see Appendix B5;
NY CPL 60.45 - see Appendix B6.

may • 4
i

m

1

STATEMENT OF TOE CAS 12

2

This petition seeking certiorari follows an earlier petition seeking same marked
fully submitted on 5 April 2021, docket # 20-7308. That petition followed the state
:

court’s denial of the Petitioner’s motion for a writ of error corum nobis alleging
ineffective assistance of counsel largely for filing a direct appeal without first filing a
post-conviction motion under CPL 440.10, and related appellate procedure matters.1 This
Petition follows the state court’s procedural default ruling on the Petitioner’s subsequent
CPL 440.10 post-conviction motion submission. Accordingly, the two petitions seeking

I
f

certiorari arc intertwined, and it may benefit the Court to consider both simultaneously.
The labeling of exhibits is the same for both petitions.
This appeal seeks the overturn of the Petitioner’s 2016 sexual assault, forcible
touch, and endangerment convictions that arose nine days before the Petitioner’s likely
win in a state legislative race. Petitioner's 2020 pro-se post-conviction motion, which was
judged to be procedurally defaulted herein complained of, complained of 19 issues
alleging that the conviction and subsequent deprivation of his liberty were
unconstitutional. The procedural default ruling denied Petitioner of substantive review of
i

In the previous Cert petition Petitioner argued that New York’s bifurcated appellate process
(direct appeal and post-conviction motion) was/is inhospitable to an appellant achieving a foil, fair and
adequate review of his constitutional claims. Here, the actual injury of such a system is demonstrated when
the courts collude and conspire to weaponize the State’s procedural rules to deny an appellant the
opportunity of appeal. Pages 3-12 of Appendix A8 describe the State’s bifurcated appellate system.
The inadequacy, unfairness and incompleteness of the New York State run-around appeal process
-as argued in Petitioner’s first Certiorari petition - is on full display in the present petition as illustrated by
the circular reasoning deployed by State officials when the Appellate Court first rejects the Petitioner’s Pro
Se Reply Brief and application for Writ of Error comm nobis claiming Appellate Counsel was defective in
not first filing a CPL 440.10 motion so as to place on the record the relevant issues by which the Court
need consider. Then, when the Petitioner files the CPL 440.10 motion the State Court rejects the arguments
therein raised on a claim of procedural default. When a State provides tor an appeal process, that appeal
must accord due process [SIMMONS V. REWOLD, 898 F.2d 865 (2nd Cir. 1990)], such due process was
denied here - both procedural and substantive.

2

■S'

his constitutional claims which as argued herein is a violation of his substantive due
process rights (Question #2) and was the result of state laws and procedure that as applied
were inhospitable to his federal rights (Question #1).
Question #3 raises a procedural conflict of interest claim. Questions 4-7 describe
the hardships imposed upon the Petitioner by an unwanted and unsolicited, but
government-imposed, expectation and insistence of a program of adjudication based upon
plea-bargaining that Petitioner claims conflicts with his trial rights. Petitioner argues that
he was retaliated against and punished for refusing the plea-deal scheme in assertion of
his trial rights. Questions 8-11 present, condense, and repeat the motion’s concerns that
law enforcement overstepped its constitutional limits by violating the Petitioner’s 4th and
5th Amendment rights in manufacturing the only evidence used to convict.
REASONS FOR GRANTING THE WRIT
I.
THE STATE’S REFUSAL TO GIVE SUBSTANTIVE CONSIDERATION
TO PETITIONER’S POST-CONVICTION GROUNDS FOR RELIEF
WAS INHOSPITABLE TO PETITIONER’S FEDERAL RIGHTS
PARTICULARLY WHEN THE COURT IGNORED
INEFFECTIVE ASSISANTANCE OF APPELLATE COUNSEL CLAIMS
AS CAUSE FOR THE DEFAULT
Petitioner’s CPL 440.10 motion was deemed by the Trial Judge to be in
procedural default by a June 2020 decision based upon CPL 440.10[2][a],[c]2 and CPL
440.10[3][a].' As applied to the Petitioner, these state procedural default rules are
unconstitutional in that (1) that the trial court’s boilerplate dismissal failed to hospitably
examine the substance of the Petitioner's claims (which if done so would have proven the

2 “...the defendant’s motion must be denied because the grounds or issues raised were previously
determined on the merits upon appeal or could have been determined but for defendant’s unjustifiable
failure to raise such issues on appeal (CPL 440.!0[2][a],[c]” See Appendix B5 for full text.
J “And to the extent defendant alleges facts not appearing on the record, they could with due
diligence have readily been made to appear (CPL 440.10[3][a].” See Appendix B5 for full text.

court wrong),4 and (2) both the trial court and more so the reviewing court, inhospitably
summarily denied Petitioner consideration of his claims by blaming him for the faults of
appellate counsel for failing to raise the issues on direct appeal.
Petitioner’s Leave application denied by the State Appellate Division in March
2021 argued at length and with precision that the trial court erred when it rejected the
claims made in his post-conviction motion under CPL 440.10[2][a]? as the issues raised
had not previously been raised on direct appeal (see Appendix C2, p. 8-15).
This same Leave Application challenged the trial court’s dismissal of his post­
conviction motion based upon CPL 440.10[2][c], listing 13 of the 19 arguments raised in
the post-conviction motion as having insufficient facts perceivable in the trial record to
have been properly considered on direct appeal (see Appendix C2, P.16-17). Petitioner’s
Leave application argued further that of the six issues raised where there were sufficient
facts on the record there were also blanks in the record caused by the trial judge’s
“habitual practice of going off the record when controversy or matters of import need[ed]
discussing.”5 N.B. the trial judge’s practice for going off-record as a cause of the
prejudice of sufficient facts not appearing in the record must be considered under the
WALNWRIGHT V. SYKES, 433 US 72 (1977) methodology considered below as yet
another reason why the State’s procedural default ruling was made in error.
!

Of particular inhospitality - and of frustration - is that both 440.10 [2] [a] and [c]
as applied assigns blame on the Petitioner for issues not presented on direct appeal (“but
for defendant’s unjustifiable failure to raise such issues upon appeal”) or not appearing in
the record (“they could have with due diligence have readily been made to appear”). Both
instances presume too much, and assign a priori blame too much to the defendant to be
reconciled with procedural due process. There are many reasons why evidence or facts
might not have appeared in the record, including trial court rulings, prosecutorial
objections, court practice of going off record, etc.6 Procedural due process should have
4 On this point, it is to be noted that the State Court was required under BRADLEY V.
MEACHUM, 418 F.2d 338 to consider matters of federal law before considering state procedural rules.
Procedural default is not independent of federal law, although the State seems to operate otherwise.
5 The failure of the trial court to preserve a complete and full transcript of the trial by which a
proper appeal could be pursued was presented to the U.S. Supreme Court as question for consideration in
the Undersigned’s petition seeking certiorari, #20-7308.
6 See for instance the argument concerning the trial court’s improper evidence preclusion detailed
in Appendix Dll.

4

required a judge to inquire into the reason why facts were not argued on appeal or did not
appear on the record by scheduling a hearing. Evidence hearings may be required under
due process to determine issues of fact in dispute. NUNES V. MUELLER, 2003 WL
22833789. Under HOFFMAN V. ARAVE 236 F.3d 523 (9th Cir. 2001), appellate courts
should have provided a reasonable opportunity for Petitioner’s claims to have been made.
Moreover, as paragraph 9 of page 18 of the Leave application details, the Judge
“had in his possession at the time he made such a boldly erroneous statement both the
Movant’s pro sc supplemental brief ... and the affidavit for a writ of corum nobis error.”
Both documents [here Appendixes C6 and C3 amply explain the cause of attorney
ineffectiveness to explain any voids in the record. Adding insult to injury the appellate
division had further explanation as to the cause of any voids as attorney error, yet opted
not to reverse (sec Appendix C2 pages 18-21). “Substantial compliance with the state
procedural rule is enough to overcome procedural default. ALBUQUERQUE V. BARA,
628 F.2D 767 (2nd Cir. 1980).
It was beyond clear by Petitioner’s Leave application (Appendix C2) that
Petitioner had made good faith effort to comply with state rules. Petitioner took
extraordinary efforts to remediate, cure and prevent any procedural default by filing a Pro
Se Reply Brief before the Appellate Court decided his case in which he attempted to raise
issues. At the same time his memorandums to Appellate Counsel (attached as an exhibit
in the leave application) sought to have appellate counsel raise other issues at oral
arguments (included herein as Appendix C7). Then Petitioner filed for a writ of error
corum nobis wherein he requested permission to file a CPL 440.10 motion without threat
of procedural default on account of appellate counsel’s errors. Petitioner’s good faith
efforts demand that the procedural default be declared erroneously applied. See ASHBY
V. WYRICK, 693 F.2D 789 (8th Cir. 1982) (Petitioner twice tried to comply with
‘arguably confusing’ procedural rule); and DOUGLAS V. ALABAMA, 380 US 415
(1965) (objection which is ample and timely to bring the claim to the attention of the trial
court and enable it to take appropriate corrective action is sufficient).
On top of the State courts errors above, such a procedural default finding ignores
the federal presumption of correctness standard that ought to apply when a petitioner
makes a claim of ineffective assistance of counsel. “When counsel’s deficient

5

performance deprives a defendant of an appeal that he otherwise would have taken ... a
reviewing court must ‘presume prejudice’ with no further showing from the defendant of
the merits of his underlying claims.” ROE V. FLORES-ORTEGA, 528 US 470 (2000).7
A larger issue herein applicable is that the state court’s automatic assignment of
blame to criminal defendants for voids in the trial record or failures to raise issues on
appeal ignores the U.S. Supreme Court's cause-and-prejudice jurisprudence as
announced in WAIN WRIGHT V. SYKES and COLEMAN V. THOMPSON, 501 US
722 (1991) at least insofar as it concerns state procedural default and federal habeas
corpus reviews (procedural default can be cured by a showing of “cause” for the
defendant and “prejudice” attributable thereto). The references to pages 18-21 describe
the ineffectiveness of appellate counsel was the cause for any procedural default.8
In like manner, the State courts were both unreasonable and inhospitable in their
decision(s) to declare Petitioner’s post-conviction motion claims in procedural default as
per CPL 440.10[3][a], To the extent the statute requires an issue to be raised prior to
sentencing, there seems to be a conflict between the federal rule pronounced in ULSTER
COUNTY V. ALLEN, 442 US 140, as an “exception to the State’s contemporaneous
objection policy that allows review of an unobjected error that affects constitutional
right.” Petitioner’s Leave application specifically cited ALLEN and applied it to his case
on page 32 (see Appendix C2).

V

Notwithstanding this conflict of laws, the greater issue that shows the State’s
egregious inhospitability in its procedural default decision is that CPL 440.10[3][a]
specifically exempts ineffective assistance of counsel claims9 - which amounted to well
over a third of Petitioner’s post-conviction motion complaints. Petitioner’s Leave
7 The State courts refusal to apply the federal presumption of correctness standard when Petitioner
filed a 2019 Petition seeking a writ of error corum nobis alleging ineffective assistance of counsel was
presented to the U.S. Supreme Court as question for consideration in the Undersigned’s petition seeking
certiorari, # 20-7308. Had the state court adhered to the federal standard when reviewing Petitioner’s
petition for a writ of error comm nobis the matter would have been properly addressed making this second
instance where a state court ignored the federal presumption of correctness standard totally and egregiously
unnecessary'.
The issues of ineffective appellate counsel and the hindrances caused by the State’s bifurcated
appellate procedures and rigidly, as well as haphazardly, enforcement limitations on what claims will be
considered in what court as the cause of the procedural default comprised a major component of the
undersigned’s petition seeking certiorari as presented to the U.S. Supreme Court, docket # 20-7308.
9 . .This paragraph does not apply to a motion based upon a deprivation of the rigid to counsel at
the trial...”

6

application seeking appellate reversal of the procedural default advised the appellate
court that CPL 440.10[3][a] ’s exception for ineffective appellate counsel claims meant
that the procedural default ruling should have been declared a legal nullity as it regards
Arguments II. Ill, IV, V, VII, VIII, XIII, XIV, XV and XIX.10 This is a sizeable amount

10 Wc summarize each herein as ineffective counsel was a major part of why the conviction ought to
have been vacated. The cumulative effect of counsel’s failings is due to a belief argued in the post­
conviction motion that Counsel did not prepare for trial as he was relying on his ability to broker a pleadeal, which Petitioner told counsel at his hiring and often afterwards that no plea deal would be accepted.
This is important when considering the arguments presented herein in Section 7.
Trial Counsel failed to prepare, interview and call witnesses. Petitioner’s CPL 440.10 motion
(APPENDIX CIO) devoted pages 124-135 to this topic, excluding additional sections on defense counsel’s
failure to call medical and expert witnesses.
Counsel failed lo subject prosecutorial witnesses to meaningful adversarial testing. This argument: was
made often in the Petitioner’s CPL 440.10 motion including pages 43-52 wherein counsel's failures to
challenge the Petitioner’s accusers, to probe their ulterior inotives, to chronicle the evolving nature of their
allegations, and failure to impeach them with meaningful yet available inconsistencies was detailed. This
claim was also raised on page 20 of the Petitioner’s 2020 Leave to the Appellate Court.
Defense Counsel failed to introduce known BRADY evidence. Exculpatory affidavits taken by law
enforcement were kept from the defense by the prosecution (and police) until the eve of trial. These
affidavits from three adult Boy Scouting leaders all claim that when the Petitioner’s accusers first raised
allegations that the claims did not include any type of touch or contact, and that claim only came two
months later from the teen-ager’s parents. Petitioner presented the issues of the prosecutor’s BRADY
violation, and defense counsel’s negligence to introduce such evidence at trial in his CPL 440.10 motion
pages 12-17, 20-27, and 148 para. 29). Petitioner’s 2020 Leave application to the Appellate Court disputes
such a determination on pages 20 and 32.
Defense Counsel failed to present medical testimony. Petitioner’s mental health was an issue relating
to statements made in a covertly-recorded control call initiated by police. Medical affidavits were produced
for use at trial including medical testimony evaluating the Petitioner’s speech and symptoms during the
phone call, the effects and combinations of the medications on the Petitioner at the time of the call, and
professional opinion as to the Petitioner’s instability leading up to and during the call itself. While
Petitioner was prescribed psychotropic medication for depression six weeks before the call, and then
prescribed a different drug a week before for pure obsession disorder resulting in both withdrawal and side
effects that made Petitioner question reality, and while Petitioner was admitted a psychiatric hospital
immediately following arraignment defense counsel did not call any doctor to testify' at trial. Numerous
doctors were subpoenaed including one who drove five hours and was present in the courthouse ready to
testify-' (his affidavit was made part of the CPL 440.10 motion), which the State refused to consider,
Defense Counsel unreasonably failed to report perjury. On the eve of trial when the Prosecution turned
over ROSARIO discovery,, the perjured testimony of a prosecutorial witness became evident. This is
described in detail on pages 30-35 of Petitioner’s CPL 440.10 motion.
Defense Counsel failed to propose and/or object to jury instructions. Argued in the Petitioner’s CPI,
440.10 Motion (pages 108-109) the failures of defense counsel to insist upon jury instructions regarding
how the Jury were to consider the testimony relating to the Petitioner’s alleged prior bad acts, as well as the
Jury’s consideration of mental health testimony resulted in prejudice to the Petitioner.
Defense Counsel failed to consult with his client at critical trial stages. Petitioner’s CPL 440.10
describes in detail the many failings of trial counsel that most severely resulted in Trial Counsel resting the
case without knowledge or consent of his client while the Petitioner was on the stand, even as the bulk of
defense witnesses had not testified (some including a medical expert in the courthouse ready to be called)
and without major components of the defense not yet admitted into evidence or argued. Pages 164-171
describes this tragic ending with affidavit-excerpts of defense witnesses.
Cumulatively, Defense Counsel undermined the overall proper functioning of the Trial. Much like the
attorney in STRICKLAND V. WASHINGTON. 466 US 668 (1984) who did not prepare for trial and did

7

of argument complaining of constitutional deprivation that did not receive any State
consideration for trial error. We note that in some respects the State court’s procedural
default ruling is not unlike the state court in MAPES V. COYLE, 171 F.3d 408 (61'1 Cir.
1989), where there too the state procedural rule unduly frustrated the enforcement of
fundamental federal rights by withholding from the Petitioner “reasonable opportunities”
to make claims. To this end, the state statute should be declared unconstitutional on its
face not just as it was applied to the Peti tioner.
For all of the forgoing reasons the State Court’s procedural default ruling that
dismissed the Petitioner s post-conviction motion should be vacated and the appropriate
rulings issued to prevent state courts from subjecting future petitioner’s from having their
claims of fundamental rights-deprivations dismissed without consideration.
II.
STATE STATUTES THAT DENY CONSIDERATION
OF DEPRIVATION OF LIBERTY CLAIMS
SHOULD BE SUBJECTED TO STRICT SCRUTINY
SO AS TO PROTECT THE SUBSTANTIVE DUE PROCESS RIGHTS
OF THE ACCUSED AND WRONGFULLY CONVICTED
New York’s statutory restriction on reviewing post-conviction motions that
contest criminal conviction merely for procedural default violate the convicted
defendant’s substantive due process rights. On their face. New York’s procedural default
rules unconstitutionally interfere with a criminal appellant’s ability to raise and have
considered issues that his deprivation of liberty violates federal law. A law that prevents
an appellant from rehashing the same issue after its merits have been determined (such as
CPL 440.10[2][a]) provides both procedural and substantive due process, but statutes that
shut out previously unheard substantive claims merely on a theory of procedural default
theory cannot be reconciled with the appellant’s substantive due process rights to have
any constitutional claim heard and considered.

not call essential witnesses to the stand, the parallels to the present case also resonate in the fact that, here
too, Trial Counsel abandoned his client midway through the trial. Pages 137-138 the CPL 440,10 motion
list a detailed summary of counsel’s failing that undermined the overall proper functioning of the trial
before embarking on an additional 36 pages of issue unfolding. Page 162 and 163 quote from die emails
sent to Counsel on the eve of trial expressing fear that Counsel was not ready - as proved to be the case.
8

CPL 440.10(2)(c) and 440.10(3)(a) both deny appellate review to claims of
unconstitutionality not previously considered based upon a theory of procedural default
(the former on mandatory basis, the second at the discretion of the judge). This was
demonstrated in the instant case where Petitioner was shut out from having numerous
issues of constitutional dimension considered

which if true amounts to a fundamental

deprivation of liberty. As argued below, a criminally convicted person’s interest in a fair
trial, due process and all the rights for which he/she is entitled by the Fourteenth
Amendment extends to appellate procedures, for which the State lacks a compelling
reason to justify any procedural default decision that precludes a fair consideration of
each claim. Recall the State Court is already required under BRADLEY V. MEACHUM,
to consider matters of federal law before considering state procedural rules, such in some
sense federal courts already recognize a substantive due process right for a criminal
appellant to have each constitutional claim considered by a state court - and yet in the
Petitioner’s situation this did not happen. Declaring the State’s statutes constitutional
incompatible is therefore necessary to prevent further abuses by the State.
“The Fourteenth Amendment guarantees more than fair process; it covers a
substantive sphere as well, barring certain government actions regardless of the fairness
of the procedures used to implement them.” HURD V. FREDENBURGH, 984 F.3D 1075
(2nd Cir. 2021). The Supreme Court has interpreted the guarantee of ‘due process of lav/’
in the Fifth and Fourteenth Amendments to include “a substantive component that bars
certain arbitrary, wrongful government actions regardless of the fairness of the
procedures used to implement them” [ZINERMON V. BURCH, 494 US 113 (1990)].
The U.S. Supreme Court has expounded a two-part test applicable to substantive due
process cases (WASHINGTON V. GLUCKSBERG, 521 US 702 (1997). The first prong
of the test seeks to determine if a fundamental right is at stake. The second prong applies
a strict scrutiny standard to determine whether a compelling state interest exists to justify
the action complained of. PEOPLE V. BELL, 3 Misc.3d 773 (Sup. Ct. Bronx Cty. 2003).
Incarceration following conviction involves a fundamental right. “Freedom from
bodily restraint has always been at the core of liberty protected by the Due Process
Clause from arbitrary government action, ... commitment for any purpose constitutes a
significant deprivation of liberty that requires due process protection” FOUCHA V. •

9

LOUSIANA, 504 US 71. A deprivation of liberty occurs, and the protections of the
Fourteenth Amendment’s Due Process clause are triggered, by “the State’s affirmative
act of restraining [an] individual’s freedom...” DESHANEY V. WINNEBAGO
COUNTY DEPT. OF SOCIAL SERVICES, 489 US 189 (1989).
The right to appeal from a criminal conviction meets the definition of a
fundamental right not just because New York State has passed legislation to provide for
appellate review (a statutory right)11, but because the right to appeal in the state is deeply
rooted in the state’s history, tradition and concept of ordered liberty. Proof and analysis
of such, in the words of its founding generation on both sides of the Constitutional
ratification debate, can be found in Appendix D6. Substantive due process “provides
heightened protection against government interference” with certain fundamental rights
and liberty interests namely those rights and interests that are “deeply rooted in this
Nation s history and tradition, and implicit in the concept of ordered liberty, such that
neither liberty nor justice would exist if they were sacrificed” (GLUCKSBERG).
Clearly, the Petitioner had a fundamental right to have the reasons alleged to be
the cause of his wrongful imprisonment and conviction examined for their substantive
value when he submitted his 2020 CPL 440.10 motion.
Strict scrutiny is the standard of review ordinarily applied to determine if a state
action infringes upon a fundamental right. CAREY V. POPULATION SERVICES INTL,
431 US 678 (1977). Such action will only withstand strict scrutiny analysis if it is
narrowly tailored to advance a compelling state interest. The state may not infringe upon
such a “fundamental” liberty interest “unless the infringement is narrowly tailored to
serve a compelling interest” RENO V. FLORES, 507 US 292 (1993).
The State Court's refusal to substantively consider the issues the Petitioner
presented in his 2020 CPL.440.10 motion lacked a compelling reason. The state decision,
PEOPLE V. COOKS, 67 NY.2D 100 (1986), advises that the reason for CPL
440.10[2][c] is to prevent the use of the motion as a substitute for appeal. CPL
11 Although many state-created rights are not recognized under the substantive due process clause,
state-created rights that trigger core constitutional interests are entitled to its protection. LOCAL 342.
LONG ISLAND PUB. SER. EMPS. V. TOWN BD. OF TOWN OF HUNTINGTON, 31 F.3D 1191 (2ni
Cir. 1994). ...It is the nature of the right, not just its origin, that matters. ... substantive due process protects
rights that are so "vital that neither liberty nor justice would exist if they were sacrificed’” HURD V.
FREDENBURGH.

10

440.l0[3][a| exists merely to discourage motion proliferation and dilatory tactics as also
expressed in CPL 210.20[3j and 255.20[2], None of these reasons are compelling enough
reasons to deny a criminal appellant consideration of a claim that may prove that his
federal rights were violated and that he is at present being deprived of liberty.
Accordingly, as argued, we assert that the state’s procedural default rule is
depriving convicted persons - and specifically the Petitioner - of the ability to present
specific claims that his/her rights have been deprived for which the State’s reason for
denying the claim from being heard are outweighed by the magnitude and importance of
the liberty interest. Therefore New York’s CPL 440.10[2J[c] and [3][a] rules must be
evaluated on their face from the standpoint of an appellant’s substantive due process
rights, and by a strict scrutiny standard. Doing so will result in their subsequent
nullification.
III.
IT IS BOTH A CONFLICT OF INTEREST
AND A DENIAL OF DUE PROCESS
FOR THE SAME JUDGE THAT PRESIDED AT TRIAL
TO RULE ON POST-CONVICTION MOTIONS
The late Second Circuit Appellate Court judge Jerome Frank once wrote,
“Democracy must, indeed, fail unless our courts try cases fairly and there can be no fair
trial before judges lacking in impartiality” (Law and the Modern Mind, p.xix). We add
neither can there be a fair appeal or post-conviction review when the judge lacks
impartiality. In the instant case, we argue that the Petitioner was denied due process in
having his trial and conviction reviewed for error when his CPL 440.10 motion was
processed and decided before the same judge w'ho presided at trial. In addition to being a
clear conflict of interest, we argue that such an arrangement admits to structural defects
in appellate procedure and can — and did - result in a miscarriage of justice.
State judiciary law' requires judges to “act at all times in a manner that promotes
public confidence in the integrity and impartiality of the judiciary” (22 NYCRR 100.2(1)
including performing “judicial duties without bias or prejudice” (22 NYCRR 100.3(b)(4).
State and federal courts have placed further impositions on a judge to protect the rights of
criminal defendants “as governor of the trial for the purpose of assuring its proper

11

-

conduct and of determining questions of law” (QUERCIA V. UNITED STATES, 289 US
466); including curbing and reprimanding the prosecutor when improper remarks are
made (PEOPLE V. STEINHARDT, 9 NY.2d 267; PEOPLE V. MOTT, 94 Ad.2d 415;
BERGER V. UNITED STATES, 295 US 78). “No matter what the evidence was against
him, he had a right to have an impartial judge” TUMEY V. OHIO, 273 US 510.
FRISCHLING V. SCHRANK, 260 NY.2d 537 argued that “the right to be tried by a
judge who is reasonably free from bias is a part of the fundamental right to a fair trial.”
We argue that to the degree that there is a right to a lair appeal, that such right needs to
include the expectation that that judge will also be free from bias.
“Dictates of reason and common sense, if not judicial policy, indicate that [the
trial judge] had a conflict of interest in deciding upon the merits and exercising decisionmaking over the issues of this case,” the Petitioner argued in his application for leave to
contest his CPL 440.10-motion’s rejection (Appendix C2) “when [the trial judge] was
named as the cause so often in denying justice to the accused.”12 Approximately one-third
of Petitioner’s post-conviction motion complained of the trial judge as a cause of trial
error by which his conviction should be vacated. These included:
•
•
«
•
•
•
•
•
•

Denying a fair trial by his rulings on objections (p. 98-113)
Inappropriate statements from the bench that caused jury taint (p.98-99,
101-106, 110-113,156)
Constraints on the opening statement (p.99)
Exerting undue influence by conducting official business off-record (p. 100,
102, 165-171)
Sabotaging the appellate record (p.100, 167)
Attempting to coerce a mid-trial plea-deal (p.l 00, 114-118).
Evidence preclusion (TWICE!: p,102, 91-97; 36-42; See also Appendix D11
for the Grievance filed with the State’s Commission on Judicial Conduct)
Failure to restrain prosecutorial misconduct (p. 180, 182-195)
Retaliatory and vindictive sentencing (p.l00, 121-122)

12 Pages 5 & 6 Appendix C2 of Petitioner's application for Leave provides some interesting
background material suggestive of foul play that is not being raised in this petition for certiorari, but its
mention is necessary to establish that when the Petitioner wrote his CPL 440.10 motion he was under the
impression that it would be decided by a disinterested and impartial judge. Had he known it was to be
submitted to the same judge who presided over the trial he may not have been so frank in his criticisms of
the judge’s acts and omissions in the trial. And yet, the fact that a Petitioner may have to consider toning
his language or omitting facts so as not to offend a reviewing judge is argument enough of why the trial
judge lacks impartiality wherein an appellate review can be said to conform with due process.

12

It is inconceivable how the Petitioner could have received an impartial and objective
review of his post-conviction motion from someone who was named therein as part of the
problem. The classic case for insisting on limits to government excess including the
principle that judges self-discipline him/herself when faced with issues of possible bias,
BERGER V. UNITED STATES, 255 US 22 includes the dicta that judges possess a
“duty to ‘proceed no further’ in the case” upon the showing of an objectionable
inclination or disposition of the judge for bias. Perhaps this dicta needs bolder teeth,
perhaps due process requires that recusal in the face of conflict on interest be not
optional, but court policy? Perhaps it needs extension to appeals?
When a judge falls short of his judicial duties, or seeks to steer it to guilty verdict
or guilty plea - as here - the convicted defendant’s post-conviction relief is sterile. It is
an empty effort for an appellate to achieve justice when any effort to expose errors,
omissions and mischief can be blocked, snuffed out, or otherwise glossed over by a judge
with an interest in preventing his own errors or those he failed to correct to be covered
up. Perhaps in the interest of court administration it is economically prudent (but not
compelling) for the same trial judge to review post-conviction motions, but it is also a
procedure ripe for abuse and at odds with due process.
The 21st Century began with various corporate scandals that required business law
to tighten its rules of accountability via internal controls; it is not unreasonable for socalled courts of justice to also adhere to procedures and rules that promote and enforce
impartiality by policing conflicts of interest and mandatory recusal for the sake of the
appearance of impartiality, if not the ideal itself. The Petitioner raised this issue in his
Leave application to New York’s appellate division citing the state mode of operations
procedural powers. It received no consideration. We raise it again now as the uncorrected
conflict violated Petitioner’s due process rights.
IV.13
PETITIONER WAS RETALIATED AGAINST
WITH EXCESSIVE AND PUNITIVE PUNISHMENT
FOR THE ASSERTION OF HIS TRIAL RIGHTS
IN VIOLATION OF DUE PROCESS
13 The facts and cited law contained within each section is intended to apply to all argued sections as
the facts and case law overlap for which page lengths has led the Petitioner to avoid needless redundancy.

13

“Certainly the District Attorney’s office, whose job it is to seek justice, would not
make an offer in a case that they did not feel was just,” spoke Petitioner’s attorney at his
2016 sentencing, “The only difference between what has happened before trial and what
they’re asking for now is that the verdict has been rendered, and they go from a
misdemeanor with a CD14 to 11 years in state prison. That’s not justice; that is revenge.”
On paper both federal and state courts condemn the principle of retaliatory
sentencing that punishes a criminal defendant with a prison sentence in gross
disproportion to an offered plea intended as a bribe for him to forgo his trial rights and
plead guilty. On the federal level these include: “The trial court must not penalize the
defendant for exercising his constitutional right to plead not guilty and go to trial.”
UNITED STATES V. HARRIS, 635 F.2d 526. Numerous additional federal court
opinion have also ruled that States may not penalize or punish a criminal defendant for
relying on his legal rights including: CHAFFIN V. STYNCHCOMTE 412 US 32 (1973)
and NORTH CAROLINA Y. PEARCE, 395 US 711. At the appellate level in this
jurisdiction the Second Circuit has ruled also in UNITED STATES EX RELE
MCGRATH V. LAVALEE 319 F.2D 308 (2,,d Cir. 1963). It is remarkable to this writer
that all of these decisions were decided 50-60 years ago, meanwhile retaliatorysentencing continues.
At the State level New York Courts in years past have also offered corrective
protection to criminal defendants punished at sentencing for choosing their constitutional
rights as opposed to prosecutorial carrots waved before them that require a guilty plea.
NY Court of Appeals Associate Justice Piggott also reached far into history in citing the
1978 state case CORBITT V. NEW JERSEY, 439 US 212 in his 2015 dissent to a state
case that ruled differently when it came to harsh sentencing following the rejection of a
prosecutorial plea deal and loss at trial. Justice Piggott cited New York State practice of
yesteryear:
“New York appellate courts have routinely reduced sentences in case in
which the disparity between the plea offer and imposed sentence was great.
For example in PEOPLE V. BROWN, 70 Ad.2d 505 (1st Dept. 1970) the
Court reduced a sentence where there was a disparity between the plea offer
of 3 1/3 to 10 years and imposed sentence of 8 to 24 years. The Court found
14 Conditional Discharge: behave for six months and the charges are dismissed; the record scaled.

14

the sentence ‘create[d] the appearance that the defendant was being
punished for proceeding to verdict, rather than receiving merely the
sentence which his crime and record justified” (id.)- In PEOPLE V.
COSME, 203 Ad.2d 375, 610 NYS.2d 293 (2d Dept. 1994), the Court
reduced a sentence to 15 years to life because of the disparity...”
Justice Piggott’s dissent in PEOPLE V. MARTINEZ, 26 NY.3D 196 (2015) (Appendix
B7) criticized his brethren justices for upholding a 10-20 year prison sentence on a
defendant who had been offered a plea with only ten-months probation.
As reported in his post-conviction motion (Appendix CIO), the judge who
conducted sentencing was aware of the unsolicited plea offerings made to the Petitioner:
“...last week early on we had engaged in some earlier negotiations about
possibly resolving this with a plea to a felony and a misdemeanor. It was like
an interim probation situation where we could resolve it with a plea to a
felony and a misdemeanor, and then Mr. Kelsey would serve on year of
interim probation, and if successful the felony would have been dismissed and
he would have been sentenced on a misdemeanor, and the sentence would be a
one-year conditional discharge, no - yeah, no probation, no sex offender
registration, and he rejected that and you know, he maintains his innocence,
he always has.
“And then so as we got very close to trial it might have been Friday,
Thursday or Friday, I think Thursday, the offer was increased significantly,
and the offer at that point was two counts of endangering the welfare of a
child as a misdemeanor with a conditional discharge, no sex offender
registration, no jail, no probation, no felonies and two orders of protection,
and Mr. Kelsey rejected that offer and again has maintained his innocence
since the day I met him,
“And then most recently we had just discussed ... a plea to the top count
which he rejected out-of-hand, so I just want to put that on the record.”
“The Court: Very Good.”
Noteworthy: none of the plea-offerings included any incarceration. This last plea offer
was made at the Judge’s insistence after the majority of Prosecution’s case when according to an 9 October 2016 letter attached to the Petitioner’s pre-sentence
investigation report - the Judge “pulled Kelsey into chambers to advise him to settle.”
Among the reasons the.U.S. Supreme Court should consider in the present matter
is that current state practice, as in MARTINEZ, is now blatantly endorsing retaliatory
sentencing. The new trend is to punish people for refusing to plead guilty despite
15

jurisprudence on the books from a half-century ago telling criminal defendants that their
trial rights will be protected under the law. The High Court needs to speak, and speak
clearly: Do trial rights matter any more? NY Associate Justice Piggott in his MARTINEZ
dissent got it right, “An appearance of judicial vindictiveness arises when a trial judge is
aware of an unsuccessful plea discussion and, after trial, the same judge sentences the
defendant to a jail term that is significantly harsher than that offered in the plea.”15 We
ask the Supreme Court to rule the same way. Justice, due process, and equitable
punishment for a charged offense should disallow a judge from imposing a sentence that
exceeds one offered in a pre- or mid-trial plea offer.
V.
PETITIONER WAS RETALIATED AGAINST
WITH EXCESSIVE AND PUNITIVE PUNISHMENT
AND DENIED EQUAL PROTECTION OF THE LAW
WHEN THE COURT SOUGHT, AND BASED, PUNISHMENT
AS COMPENSATION FOR TRIAL
INCONVENIENCES OF “VICTIMS”
Like an onion the issue of retaliatory sentencing has many layers. What is
significant here is not just that modern courts are tending to sentence upwards of a pre­
verdict sentence offer, but that courts of today are basing its decisions in a verbalized
desire to compensate victims for trial-related traumas, i.e. punishing convicted defendants
for “forcing” the victims to testify at trial (see the majority opinion in PEOPLE V.
MARTINEZ in Appendix B7). This was the same rationale used in the Petitioner’s case
when the trial judge ordered him to take a mid-trial guilty plea (with only ten months of
probationary supervision) so as to “prevent the other boy from having to testify” (see
Appendix C10, p. 115).
The added significance is that the New York Legislature has not instituted such a
policy shielding accusers from testifying, nor could such a law interfering with an
accused person’s trial rights survive judicial scrutiny. Nor has the State or Congress
passed laws that convicted defendants should be penalized for the traumas of trial, also
15 Perhaps it is also a conflict on interest for “the same judge” who presided over trial to also preside at
sentencing. Such an internal control of separating the roles could avoid the abusive opportunity as well as
the appearance of impropriety.

16

unlikely to survive constitutional scrutiny. And yet, judges in New York are observing
such an unwritten rule [see for instance PEOPLE V. MILLER, 65 NY.2D 502 (1985)].
New York judges are inflicting harsh sentences in furtherance of such a personal
philosophy [“Defendant's rejection of the plea offer also required the victim to testify
about the sexual abuse at trial, a factor this Court has recognized as a legitimate basis for
the imposition of a more severe sentence after trial than that which the defendant would
have received upon a plea of guilty” MARTINEZ). Brazenly, New York judges are
holding convicted defendants to an unconstitutional standard that punishes them for
asserting their innocence, punishes them for seeking their rights under the Constitution and then unduly punishing them for the procedural traumas, burdens and costs associated
with the criminal justice process.
The majority’s opinion in MARTINEZ, that the so-called victims’ '"right not to
have to testify is somehow equivalent to the reduced plea is a question of value - not one
of law, or of contract. Judges are not qualified to measure or make value judgments. Nor
is it a judge’s role to set public policy by equating or valuing so-called victims’ rights
(which appear no where in the Constitution or in federal or state statute) with the trial
rights of the accused which have cherished standing in the law and in the constitution.
What the New York judges are brazenly doing - despite perhaps noble or meritorious
intentions - is seeking to hold criminal defendants accountable for the rigors of the
justice system in decisions that resemble if not amount to compassionate despotism, but
despotism nonetheless. This, the Bill of Rights was adopted, to prevent - and disallow.
To punish defendants who proceed to trial runs afoul of equal protection at the
expense of the accused person for whom the rights contained in the Fifth and Sixth
Amendments were meant to protect. Again, the Supreme Court needs to speak on
society’s values when it comes to the rights of the accused. Not unlike the Petitioner, the
aforementioned Martinez in the 2015 state Court of Appeals case was offered probation
to plead guilty, and then punished with a lengthy prison term. In Martinez’s case the NY
Court of Appeals got away with endorsing Mr. Martinez’ retaliation at sentencing by
finding there that was no presumption of vindictiveness when a defendant’s sentence
exceeded the rejected plea offering. Here, we need not concern ourselves with
“presumptions” of vindictiveness as in the present case the repeated calls for

17

vindictiveness and retaliation to punish the Petitioner for asserting his rights to trial - and
appeal - were explicit in the record itself.
The pre-sentence report (prepared by the government’s probation department by
order of the Judge) opines for a “substantial term of imprisonment” including quoting the
arresting officer who sought “maximum punishment. ;»I6 The justification? “Reportedly,
the defendant was offered a plea deal however” but as per the government issued report,
“the defendant chose to take the matter to trial. “Investigator Rutledge stated, in his
opinion, [the Petitioner] re^victimtzed the victims by doing so. He believes the defendant
should be sentenced to a maximum term of imprisonment” (emphasis supplied). See
Appendix D12. Note that the same PSI report rated the Petitioner as a “low risk for
violence and recidivism,” suggesting that its recommendation for a prison term was not
grounded for any fear or danger to the community, but merely punishment for asserting
constitutional rights. Prior to trial the Petitioner was released on a mere $2,500 bail, later
reduced to $1,000.
Apparently the probationer and the state police officer did not know that what
they were advising the judge to do was itself a violation of due process. “Due process
requires that a defendant be freed of apprehension of such retaliatory mutation on the part
of the sentencing judge. BLACKLEDGE V. PERRY, 417 US 21 (1974). Perhaps the
Judge was unaware too that retaliatory sentencing violates federal law, as he announced
at sentencing that his sentencing decision was based upon the “contents of the pre­
sentence investigation report and the victim impact statements and the sentencing
hearing.17 The various victim impact statements attached to the Petitioner’s pre-sentence
report ask that the petitioner should be punished to the maximum tenn for “the immense
expense of legal resources,” due to “the cross-examination the accusers went through,”
and the trial expenses of having to take vacation time at work and hotel expenses.
One of the accusers in their sentencing speeches asked for the maximum
punishment as Iris “having to testify at court” “put a huge stress on me.” Maximum
punishment was sought in the sentencing speeches to punish the Petitioner for “dragging
16 Under State law the pre-sentence investigation report is a confidential document such that the
Petitioner is not permitted to attach it as an appendix.
17 Recall also that the Petitioner argued in his post-conviction motion that the Judge threatened
him off-record mid-trial that if lie did not accept the mid-trial plea that he would pay the consequences for
it. See Appendix CIO, p. 100, 121-122.

18

out the legal process ... and even now by trying to overturn the Court’s decision.” The
other accuser referenced the rejected pleas in asking the Judge to sentence the Petitioner
to the maximum prison term because “throughout his convicting process [the Petitioner]
was given opportunities to resolve this easily, but he chose a difficult route each time.”
This accuser’s speech also cited testimony elicited by the defense as grounds for
punishing the Petitioner: “My friend,” a defense witness, “went on the stand and called
me a liar. The defense tried to humiliate [us] by calling us liars and questioning our
reputation” at a time when “during the five days of school I missed for the trial when I
had seven Regents to study for.” Noteworthy is the fact that both accusers stated in
videotaped interviews with the police on the day of the Petitioner’s arrest that neither
wanted the Petitioner to go to jail.18 Again, the accuser’s change in their punishment
preference made to the court establish clearly and convincingly that the harsh prison
sentence was imposed to punish the Petitioner for electing a trial, which is doing what the
law allows, namely exercising his right to assert his innocence and generate a defense.
Petitioner does not lack empathy for the so-called victims and their families, but
argues that it is sophist sleight-of-hand to blame and punish criminal defendants for the
stresses of trial when the prosecutor has all the power in the world to drop charges and/or
in the interests of justice (which may include concern for the trial trauma of the
“victims”) choose not to proceed (nolle prosequi). This too was argued in Petitioner’s
post-conviction motion (Appendix CIO, pages 122-123) and also argued on appeal for
Leave to the Court of Appeals19. Such an inversion of justice also begs for U.S. Supreme
Court attention particularly after the New York courts demurred.
As with PEARCE, CHAFFIN, and BORDERKIRCHER V. HAYES, 434 US 357
this query asks if retaliatory motive in sentencing still violates the traditional concept of
fairness embodied by due process, whether judicial consideration of the burdens of trial
on crime victims into the sentencing decision violates due process, and whether such
considerations denied the Petitioner his right to equal protection under the law.

18 Post-conviction depositions in a civil action has also revealed that the parents of the teens have
consistently coerced both teens to make these allegations to the police and subsequent proceedings.
19 “If more harm is caused to ‘victims’ in processing offenses than in the offense itself, then
perhaps legislators, law enforcement, prosecutors and judges need to reconsider the definition of crime, and
where plea-bargaining fits within a constitutional justice model?”

19

VI.
PETITIONER WAS RETALIATED AGAINST
WITH EXCESSIVE AND PUNITIVE PUNISHMENT
FOR EXERCISING HIS TRIAL RIGHTS
IN VIOLATION OF THE EIGHTH AMENDMENT
“The trial court must not penalize the defendant for exercising his constitutional
right to plead not guilty and go to trial/’ UNITES STATES V. HARRIS, 633 F.2d 526
(6th Cir. 1980). Retaliatory sentencing is “impermissible.” PEOPLE V. PATTERSON,
483 NYS.2d 55 (App div. 1984). Here, we ask if retaliating against a criminal defendant
who rejected a plea and proceeded to trial with a heavy sentence can be considered
excessive within the murky meaning of federal court jurisprudence?
Among the many possible examples that establish how widespread this issue is, in
1998, Mr. Scalf rejected a probation plea-offering, lost at trial, and was then sentenced to
a year-and-a-half in prison in Ohio. STATE V. SCALF, 710 NE.2d 1206 (Ohio Ct. of
App 1998). In 1999, Mr. McDonald rejected a three-year-four-month prison term, only to
be sentenced to 30 years in prison in his Florida trial (MCDONALD V. STATE, 751
SO,2d 56). In the instant case in 2016 New York, the Petitioner is now in the fifth year of
his seven year prison term to be followed by ten years of probationary supervision (i.e.
subjected to all sorts of liberty-depriving terms and conditions like senseless curfews and
restrictions on travel), collateral damages that this Court declines to consider as
punishment like sex offender registration, restrictions on housing, loss of his law license,
loss of the right to vote and hold public office, etc., and a myriad of intangible
infringements upon the pursuit of happiness to include loss of reputation, loss of career,
egregious attorney and court expenses, stigma, shame, etc. after refusing plea offers that
mandated small terms of probation, a conditional discharge and scaling of his record (see
supra). Is such a sentence excessive?
That the practice of retaliatory sentencing is largely accepted punishment is
accepted by both academia and the bench. “Evidence of sentencing disparity visited on
those who exercise their Sixth Amendment right to trial by jury is today stark, brutal and
incontrovertible,” wrote Massachusetts District Court Judge William Young. His 2001
decision was candid in BERTIIOFF V. UNITED STATES, 140 F.Supp.2d 67 (D. Mass

20

2001). “Today, we punish people - punish them severely,” Judge Young wrote, “simply
for going to trial. It is the sheerest sophistry to pretend otherwise.”
“Punishing the defendant for making the state prove its case (which of course
entails calling the alleged victim as a witness) is a clear punishment for the defendant’s
exercising his constitutional right to trial,” spoke Professor Richard Klein of Touro
University in a Hofstra Law Review article, Due Process Denied: Judicial Coercion in the
Plea Bargaining Process. “Such punishment is not only vindictive, it is also
unconstitutional,” Klein continued. Stanford University’s George Fisher called the
“harsher sentence” imposed upon defendants who “stand trial and lose” both a “penalty”
and a “tax” to make the defendant pay for ‘having burdened the court with a trial” (Plea
Baraainina’s Triumph: A History of Plea-Bargaining in. America, p. 179. 184).
Does such punishing disparity when the sentence exceeds - and exceeds by far the prosecutorial plea offering meet the definition of cruel or unusual punishment? Is it
excessive? When considering that “fives years of hard and painful labor including being
chained from wrist to ankle for falsifying a single document” was considered excessive in
the Supreme Court’s interpretation of the Eighth Amendment in WEAMS V. UNITED
STATES 217 US 349, we argue that Yes a seven-year prison sentence and lifelong shame
and stigma as a sex offender in today’s “cancel culture” after turning down a conditional
discharge and/or probation with a mandated guilty plea is far more severe.
We argue also that when prosecutors sought to offer probation or conditional
discharge pre-trial that anything short of probation and conditional discharge is grossly
excessive. We argue that it is neither in the interests of public safety nor in the interests of
justice - and certainly not in the interests of taxpayers which nobody considers anymore.
We argue that such inquietude is a by-product of the egregious sentence ranges passed by
legislatures to induce criminal defendants to accept pleas. Such state influence designed
to coerce a defendant to plead guilty at the expense of giving up constitutional rights is
argued in the next section as being coercively unconstitutional; here we are argue that the
punishment that follows from retaliation from an unsuccessful state-sponsored attempt to
bribe a person from asserting defense rights is cruelly and unusually excessive.
Excessive and harsh (that is cruel) sentencing as a byproduct of a system built
upon a plea-bargained contract model of criminal adjudication is easy to see. In particular

21

consider the “unusual” imprisonment punishment practices imposed on sex offenders in
the last half-century since plea-bargaining was formally accepted and given the U.S.
Supreme Court’s imprimatur. William Edwards and Christopher Hensley report that in
1980, 4/5 of convicted sex offenders received sentences of probation compared to 79
percent (just shy of 4/5) being sent to prison in 1996.20 This complete reversal is also a
330 percent imprisonment increase for sex offenders at a time when the overall prison
census increased by only 206 percent.21 Such statistics suggests that, on the norm, that
imprisoning sex offenses is unusual, if unusual is defined as historical.
To the degree that the U.S. Supreme Court’s 21s* Century excessive punishment
jurisprudence has focused on classes of people rather than specific situations or
sentences, the drastic change in the sentencing of sex offenders from a probation
approach to an imprisonment model shouts for excessive punishment relief. It should not
shock any conscience that the moral panic and social stigma attached to sex crimes
psychologically acts as an inhibitor to many defendants accused of a sex crime from
accepting a plea - even a reasonable one that would spare him/her imprisonment - when
such plea requires a public admission of guilt. A false accusation on such a potentially
1

life-ravaging topic demands an opportunity to answer, challenge and defend oneself such
that to some plea-deals will never measure up, even when rejecting a plea may mean a
long prison term due to sentencing ranges enacted chiefly to entice plea-settling instead
of trials. For instance, MARTINEZ involved a man accused of sex offenses who not
unlike the Petitioner likely exercised his trial rights to challenge the narrative and tell his
version of the facts on such a stigmatized topic. It is likely that the stigma associated with
the labels associated with such a charge influenced Mr. Martinez’s decision not to accept
probation but to fight the charges. Should the widespread social stigmatization of sex
offenders prevalent in society exempt sex offenders from having to choose between
admitting guilt between a lenient plea offer or facing a long prison term in retaliation for
rejecting a plea and proceeding to trial as such a choice be deemed a subjection to a cruel
and unusual punishment?

20 See their 2001 article, “Restructuring Sex Offender Sentencing: A Therapeutic Jurisprudence
Approach to the Criminal Justice System Process.”
21 Ibid.

22

A probationary plea, while from a prosecutor’s perspective is perhaps benign,
from a defendant’s it is vastly incommensurate to the lifelong social stigma attached to a
conviction, and tremendously disproportionate to the invidious discrimination for which
such a guilty plea to a sex offense will subsequently subjected him/her. The Court’s
confluent 21st Century jurisprudence on excessive punishment that looked to the psyches
of ill-formed minds as guide in determining when a sentence is excessive may seek to
engulf alleged sex offenders as a class in whom the law should especially shield from
retaliatory imprisonment following a rejection of a plea.
Unlike the 21st Century U.S. Supreme Court excessive punishment cases, and
unlike RUMMEL V. ESTELLE, 445 US 263 and HARMELIN V. MICHIGHAN, 501
US 957, the instant case is not asking the Court to reverse a legislative policy. Rather
what is under the microscope here is a judicial policy, and one firmly within the Court’s
purview. Is it good constitutional practice to punish persons who reject a non-prison plea,
and are then sent to prison in what appears, is often, - and as demonstrated in this case is the response to calls for punishment for asserting trial rights? Can judges mete out
harsh punishments when he is aware that the minister of justice - the prosecutor - has
already made a determination via a plea offer that the defendant does not need to be
incapacitated in prison for justice to be served?
Lastly, an argument could be made that the surge in imprisonment seen in the last
half century was a direct result or corollary of the U.S. Supreme Court’s recognition of
plea-bargaining as an accepted means of prosecuting defendants, and that States
responded in kind by lengthening prison sentences to provide prosecutors with leverage.
As an example, New York penal code was updated in 1969 with the express purpose of
increasing plea bargaining opportunities (see Fisher’s Plea Bargaining’s Triumph, p.170
quoting Commission Chairman Richard Dennison). Perhaps the increased sentence
ranges are in fact excessive when their precise purpose - as New York admits - was to
promote plea-bargaining, at the expense of a defendant’s trial rights?

vir,
THE STATE’S RELIANCE ON PLEA-BARGAINING
AS ITS NORMAL MODE OF PROCEEDING
THREATENED AND/OR DEPRIVED
PETITIONER OF HIS TRIAL RIGHTS

23

AND SUBJECTED HIM TO RETALIATION
IN CONFLICT AND OPPOSITION
TO THE CONSTITUTION’S GUARANTEES
The Fourteenth Amendment prohibits States from violating the rights afforded
citizens under the Constitution: “No State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the United States.” These privileges
include the trial rights afforded by the Fifth and Sixth Amendments including due
process, public trial, jury, witness confrontation, process for obtaining witnesses in his
favor, and the right of counsel. Such rights have been interpreted by the U.S. Supreme
Court to include effective counsel and an impartial judge tasked with “safeguarding the
rights of the accused.”22 The immunities guaranteed by the Constitution include the
Eighth Amendment’s prohibition on cruel and unusual punishments and the Fifth
Amendment’s right not to self-incriminate. The Petitioner argues that the State’s over­
reliance and insistence on plea-bargaining as a means of docket control, unduly subjected
him to a deprivation and denial of the privileges and immunities afforded him by the
Constitution - and as argued supra eventually led the State to punish him with an
egregious sentence in vindictive retaliation for asserting his trial rights.
In pre-trial correspondence with the District Attorney and with documented records
with the Petitioner’s trial attorney (see pages 121-123 in Appendix CIO) Petitioner made
it abundantly clear that the Petitioner would be unwilling to entertain or engage in any
plea-bargaining. Nevertheless, as the trial approached the District Attorney made
repeated plea offers, culminating in a mid-trial plea arrangement that the Trial Judge
orchestrated wherein Petitioner wrote in his post-conviction motion that he was bullied
by the trial judge to take a plea under a threat of severe punishment if he did not (see
pages 114-118). It is also argued that but for defense counsel’s self-confidence that he
could persuade the Petitioner into accepting a plea that defense counsel would have
prepared for trial, for which his egregious lack of preparation cost the Petitioner any and
all semblance to a fair trial.23
22 GLASSER V. UNITED STATES, 315 US 60 [1942] (upon the trial judge rests the duty of
seeing that the trial is conducted with solicitude for the essentia! rights of the accused”).
23 The Petitioner’s CPL 440.10 motion (APPENDIX CIO) argued in detail ineffective claims. See
footnote 12 in Section I.

24

Petitioner’s argument is that while plea-bargaining may be of benefit to the guilty, it
is a disservice to the innocent, not to mention an unreasonable assault on an accused
person’s right for the State to compel a criminal defendant to plead guilty as a means of
case-disposal. This is particularly a disservice for the innocent suspect who may reject a
plea deal in hopes of having his name cleared who is now re-cast as a villain by the State
when he elects not to accept a plea. Even benign plea offerings like a conditional
discharge require a guilty plea that conies with a criminal record and long-lasting Internet
stories that threaten the later pursuit of happiness. A system that relies upon plea-deals
does so at the expense of trials where otherwise a defendant could confront and impeach
his accusers, call witnesses, and present evidence, not to mention possibly be acquitted.
The very notion that this Petitioner need spell out the benefits of trial in a brief to the U.S.
Supreme Court suggests what an ill effect the system of plea-bargaining has had on the
American justice system. Trial rights have value to the criminally-accused that the State
should not be in the business of curtailing by insisting on a plea-deals.
Petitioner argued in his CPL 440.10 motion (Appendix CIO) that he has been
injured in the pursuit of justice by New York’s criminal justice system’s over-reliance on
plea-bargaining as its main vehicle for processing criminal defendants. Such injuries
include prosecutorial over-charging to gain leverage in plea-negotiations (p.119)24, as
well as the monetary over-charging of criminal defense attorneys in the prices they
charge clients when advertising trial defense all the while only intending to negotiate a
reduced plea (p. 120). As illustrated extensively in Petitioner’s paperwork the ineffective
- rather defective — assistance of counsel at trial is believed to be directly related to an
attorney who was neither skilled nor prepared to conduct a trial, who all the while
believed criminal defense work nowadays amounted only to negotiating a reduced
“deal.”25 Such neglect of trial preparation was in total disregard of his client’s expressed

intention, who at all times told him he would not accept any plea (see pre-trial email
confirmation cited on p. 123 of Appendix CIO). The taint and smear of the prosecutorial
24 Petitioner’s claim that the Prosecutor over-charged him in part to obtain leverage in bargaining
(as also to gain from the publicity his elected official status would garner for her by charging him with a
legally insufficient felony) was raised in a State Habeas Corpus action that is not before this Court at this
time. To the effect that the existence of prosecutorial over-charging has bearing on this argument Justices
may review the State Habeas Claim documenting and claiming both unconstitutionality of the state statute
and the lesal insufficiency of the facts to sustain both indictment and conviction in Appendix D7.
"See footnote 12 in Section I.

25

charges were such that he would not settle for anything less than dismissal of the charges
or acquittal (p.121).
Pages 114-118 of Petitioner's CPL 440.10 motion describe how the Trial Judge
initiated a mid-trial plea (with a sentence of ten years probation) in an in-chamber
discussion held off-record, and for which Petitioner's March 2020 Reply (Appendix Cl 1)
includes corroborating evidence of the judge’s involvement. See also Petitioner’s
grievance filed with the State’s Commission on Judicial Conduct in Appendix DIO. As
argued in the motion with a citation to the Second Circuit’s decision in UNITED
STATES V. WERKER, 535 F.2d 198 (2nd Cir. 1976): “In the defendant’s eyes the judge
who has attempted to get the defendant to plead guilty has determined that the defendant
is indeed guilty and he will be ‘an advocate for the resolution he has suggested to the
defendant.” WERKER affirms the federal law requirement of an impartial judge as
enunciated in TUMEY V. OHIO, 273 US 510, UNITED STATES V. LOGAN, 998 F.2d
1025; ELKSNIS V. GILLIGAN, 256 F.SUPP 244 as elsewhere.
Petitioner’s post-conviction motion argued that the Trial Judge’s biases hindered
his defense, affected his rulings on objections and evidence admission, and had a
negative effect on the jury (see Section III supra). So also it was argued (in Section III)
that the Judge’s damaged ego when Petitioner “disobeyed” his mid-trial mandate that the
Petitioner accept the plea-deal he organized influenced his procedural default decision.
A criminal trial should not be viewed as a transaction. In a transaction the buyer is
free to walk away. Not so in a trial. To look at a legislative sentence as full price and a
plea as a negotiated discount where give-and-take is bargained for lacks the freedom that
the “free” market requires. A negotiated plea accepted is voluntary only insofar as
Aristotle’s Ethics considered a man who throws overboard cargo on his ship in a storm to
prevent sinking does so voluntarily. He does so under duress. A defendant forced to take
a plea is forced to take the guilty “goods” no matter what. Conversely guilt or conviction
is not a given the way it is in a plea-deal, and therein lies the difference why a contract
theory applied to a criminal proceeding is on its face incommensurate.
That a State dictates such a policy that is opposed to the rights guaranteed to the
accused by federal law and wherein lawmakers manipulate sentence ranges to further its
spread should cause scandal. That the State then pressures criminal defendants to

26

embrace such a policy, overcharges arrestees to increase their return, and then subjects
the accused to punitive measures if he “disobeys’' is likewise despotic. But, when bar and
bench permits self-contaminate themselves such that the accused man or woman is
denied an impartial judge and/or denied effective counsel there comes a time when a
student of constitutional law must ask, as Chief Justice Marshall once asked, “Are we a
nation of men [sic], or a nation of laws?”
VILX.
WHEN LAW ENFORCEMENT ADMITTED
TO THE USE OF FRAUD IN THE MANUFACTURE
OF MATERIAL EVIDENCE USED
TO OBTAIN INDICTMENT AND CONVICTION,
PROBABLE CAUSE WAS NEGATED SUCH
THAT PETITIONER’S INDICTMENT AND
CONVICTION MUST BE VACATED.
State law of New York requires that the probable cause necessary to obtain a
criminal indictment “should be rebutted where the record failed to disclose evidence
establishing that law enforcement misrepresented salient facts plaintiffs criminal
proceeding including showing the existence of fraud, perjury and misrepresentation,
police misconduct and suppression of evidence.” SHOPLAND V. COUNTY
ONONDAGA, 154 Ad.2d 1941. This rule repeats in COLON V. CITY OF NEW YORK,
60 NY.2d 82.
So too does NY Criminal Procedure Law 60.45(2)(b)(l) & (2) require the
exclusion of statements made by a criminal suspect when the “public servant engaged in
law enforcement activity or by a person then acting under his direction or in cooperation
with him by means of any ... statement of fact, which ... statement creates a substantial
risk that the defendant might falsely incriminate himself, or in violation of such rights as
the defendant may derive from the constitution of this state or of the United States.”
In the same year that the Petitioner was subjected to restraints on his liberty by
post-arraignment sanctions, the Second Circuit ruled in RENTAS V. RUFFIN, 816 F.3D
214 (2nd Cir 2016) that the presumption of probable cause that normally attaches to
Grand Jury indictments may be rebutted by wrongful acts by police including fraud,
perjury or suppression of evidence (emphasis supplied).

27

On the federal level, the United States Supreme Court held in the New York State
case, SPANO V. NEW YORK, 360 US 315 that “Police must obey the law while
enforcing the law, that in the end life and liberty can be as much endangered from illegal
methods used to convict those thought to be criminals as from the actual criminals
themselves.”. Also, “When the Fourth Amendment demands a factual showing sufficient
to comprise ‘probable cause,’ the obvious assumption is that there will be a truthful
showing.” FRANKS V. DELAWARE, 438 US 154 (1978). The U.S. Supreme Court
expressed zero tolerance for use of deception such that its use amounted to a violation of
“the fundamental conceptions of justice which lie at the base of our civil and political
institutions ... if a state has contrived a conviction through the pretense of a trial which in
truth is but used as a means of depriving a defendant of liberty through a deliberate
deception of the court and jury.” MOONEY V. HOLOHAN, 294 US 109.
Here, law enforcement planned and conducted a “control call” on the petitioner
on 15 December 2014. This 26-minute clandestinely recorded phone call then became the
prosecution’s only non-testimonial evidence used to indict (June 2015) and convict (May
2016) the Petitioner. Both the arresting officer and police agent testified at Petitioner’s
trial to misrepresenting facts and making untruthful statements in the control call so that
the Petitioner would rely upon the misrepresentation to make an admission, upon which
he could then be arrested, the recorded phone call serving as the evidence against him. As
argued in Petitioner’s CPL 440.10 all the elements of fraud have been met (p. 173, para.
10). Accordingly “the record of the trial adequately established that the elements of
Actual Fraud were acknowledged by the police agent by which the control call can be
determined to have been unlawfully produced, thereby requiring its rejection” (p.180,
para 25) and ‘that the conviction and indictment be reversed” (p.l 81). As noted the State
unreasonably refused to consider Petitioner’s CPL 440.10 motion such that the substance
of this claim has not been adjudicated.
Pages 172-181 and to a lesser degree pages 62-73 of Petitioner’s CPL 440.10, as
well as the KELSEY V. DUWE lawsuit (Appendix D8) motion, describe in detail the
numerous misrepresentations and fraudulent statements that the police agent made and
the Petitioner relied upon in the 2014 phone call that are grounds by which the Indictment
and Conviction need by reversed. Of these the most material misrepresentation used to

28

indict and convict the Petitioner is listed on page 176 of the motion wherein after the
Petitioner repeatedly denied touching “D,” the police agent lied stating that he was
observed by “J.” After vehemently denying any touch [ “They - they - they said
something happened with D. in the car. ... That 1 reached towards D. And I don’t - /
have no recollection of this. I don’t remember this " and “I said No. I said No. 1 wouldn ’t
have done that. ”] After the police agent introduces the untrue statement that he was
observed touching D, Petitioner then accepts “responsibility,” stating [‘7/./, says I did,
then I must have. And - it scares me. ”) (.I’ll take responsibility, but I don ‘i know. I don’t
know if 1 did. ”) (“Did I do it in my sleep? Possibly, But I don’t - 1 mean, we were in
close quarters ... Is it possible? Maybe. But I don’t - I don’t -” ]. This “admission” led
to the Petitioner’s sole felony arrest on the night of 15 December 2014.
At trial the police agent was asked: “Did J. ever tell you that he saw what
happened to D? / No. / Did you make that up? / Yes. / Any why did you do that? / So that
he would admit what he did.” Also on Page 17 the police agent was asked to confirm the
deceit: “J. told me that he saw something with D. in the car. That wasn’t true? / Correct. /
These were all fabrications that were intended to elicit an admission from my client.
Correct? / Yes. / ‘J. told me that he saw you touch D.’ Untrue? / Correct.”
We argue that this is a serious misrepresentation that coaxed the Petitioner into
accepting the police agent’s version of what was alleged to have taken place not unlike
the police tactics condemned in SPANO V. NEW YORK: “The police were not therefore
trying to solve a crime, or even to absolve a suspect ... they were rather concerned
primarily with securing a statement from a defendant on which they could convict him.”
Justice Douglas’ concurrence in SPANO argued that such police tactics violate due
process and the principle of fair trial, constitute police misconduct, and “will lead to a
kangaroo court.”
Not just legal precedent but scientific research supports the self-evident finding
that leading questions and misrepresentation contaminate an interrogation. Gisli H.
Gudjansson CBE, PhD, a world-recognized expert on false confessions argues that the
interrogative suggestibility technique of police is used to manipulate pre-determined
answers wherein “people come to accept messages communicated during formal
questioning” as they attempt “to cope with uncertainty and inteipersonal trust on the one

29

hand and expectations on the other” (see his study with N.K. Clark, Suggestibility in
Police Interrogations: A Social Psychological Model, Social Behavior. 1, 83-104 26
Suggestion and confabulation of a suggested narrative repeated over and over
again “devastates memory and plays havoc with recollections,” was argued as early as
1908 by Hugo Munsterberg whose authoritative view has been recognized for over a
century. He held that false confessions can occur in healthy individuals who are caught
up in unusual circumstances for instance being arrested and charged with a crime. More
recently clinicians D. Davis and R.A. Leo assert that factors brought on by emotional
distress can lead to a failure in self-regulation that can cause even healthy suspects of
good intelligence to succumb to pressures in police interviews. Davis and Leo claim that
a, lack of self-regulation include a temporary loss of the ability to control emotion,
cognition and behavior.27 Petitioner’s post-conviction motion referenced an even older
authority, namely Adam Smith, whose theories on false confessions are discussed on
pages 88-90 in Appendix CIO in a passage arguing that it was ineffective assistance of
counsel not to call available expert witnesses to stand to counter the control call once it
was admitted into evidence.
A second form of police misconduct that should invalidate the indictment - if not
also the conviction - is the arresting officer collected three exculpatory investigation
affidavits, considered within days of the Petitioner’s arrest that he then failed to deliver to
the Prosecutor for sixteen months including allowing the Grand Jury to convene and
indict the Petitioner without the Prosecutor being aware of the existence such exculpatory
documents. These investigation affidavits are significant because all three claim that D’s
original version of his allegation did not include any claim of being touched by the
Petitioner. These affidavits, not shared with either the Grand Jury or the Trial Jury,
include:
26 In his book, The Psychology of False Confessions: Forty Years of Science and Practice.
Emeritus Professor of Forensic Psychology at the Institute of Psychiatry, Psychology & Neuroscience at
King’s College, London Gisli Gudjansson discusses how modem American police interrogation is designed
to lead a suspect from denial to admission by following the “Ofshe and Leo Decision-Making Model of
Interrogation,” described in the latter’s 1997 article, Tile Decision to Confess Falselv: Rational Choice and
Irrational Action. Denver Univ. Law Rev. 74, 979-1122: “The first step involves repeatedly accusing the
suspect of the offence, vigorously refuting the denial, attacking their alibi and memory, and presenting
them with ‘supposedly incontrovertible evidence of guilt* (p.990), which may be real or fabricated.”
27 See Interrogation-Related Regulatory Decline: Ego Depletion. Failures of Self-Regulation, and
tlie Decision to Confess. Psychology, Public Policy and Law 18, 673-704.

30

• “I asked them repeatedly if they were touched or if there were was any
skin to skin contact. Their answer was no.”
• “Marsella said that he had asked the boys specifically if Mike Kelsey had
touched them inappropriately and they said ‘no.’”
• “I repeatedly asked Marsella if the boys made any allegations that they
were touched inappropriately, and he repeatedly told me No.”
• “There was no accusations of inappropriate touching.”
* “At the time everybody was under the impression that... [D.] were not
touched.”
• “Chris told me that he asked both guys more than once if Mike had
touched them or if there was physical contact. They both replied No.”
• “At the time I was under the impression that [D.] was not actually touched
at all.
The police officer’s failure to turn this exculpatory evidence over to the Prosecutor is
police misconduct within the meaning of SHOPLAND V. COUNTY ONONDAGA, and
a violation of Petitioner’s federal rights within the meaning of NY Criminal Procedure
Law 60.45(2)(b)(2). The failure of police to furnish exculpatory information to the
prosecutor is a constitutional violation. NEWSOME V. MCCABE, 256 F.3d 748.
The U.S. Supreme Court held in KYLES V. WHITLEY 514 US 419 (1995) that
police failure to provide material to prosecutor violates Brady: “Any argument for
excusing a prosecutor from disclosing what he does not happen to know about boils down
to a plea to substitute the police for a prosecutor.” KYLES is the leading case charging
the government, i.e. the prosecutor, to set aside any conviction when exculpatory
information was withheld by the police even when the prosecutor was unaware. “The
individual prosecutor has a duty to learn of favorable evidence known to others acting on
the government’s behalf in the case, including the police.” WALKER V. CITY OF N.Y.,
974 F.2d 292 (2d Cir. 1992) (“The police satisfy their obligations under BRADY when
they turn exculpatory evidence over to the prosecutors.” This holding has been upheld in
ELKINS V. SUMMIT COUNTY, OHIO, 615 F.3d 671 (2010); MOLDOWAN V. CITY
OF WARREN 578 F.3d 388 (6th Cir. 2009). POVENTUD V. CITY OF NEW YORK,
750 F.3d 121 (2nd Cir. 2014) and KEUIIL V. BURRIS, 173 F.3d 646 (8th Cir. 1999).
31

The probable-cause nullification is a consequence of the police’s BRADY
violation. The Respondent’s failure to disclose the material and impeachment evidence
to the prosecutor destroyed any probable cause that may have existed at the time of arrest
in accord with HUDSON V. COUNTY OF DUTCHESS 2015 WL 7288657
(COSTELLO V. MILANO 20 F.SUPP 3d 406). See also PYLE V. KANSAS, 317 US
213 (1942); UNITED STATES V. VALENZUELA-BERNAL, 458 US 858 (1982); and
BELLAMY V. CITY OF NEW YORK, 914 F.3d 727 (2nd Cir. 2019).
Like the deceit of the police agent in the phone call, the failure of the police
officer to turn over the exculpatory affidavits is equally material when reviewing a claim
of police misconduct and its impact on a person’s right to due process. “Whether the
alleged judicial deception was brought about by material false statements or material
omissions is of no consequence” LISTON V. COUNTY OF RIVERSIDE, 120 F.3D 965
(9

Cir. 1997). Accordingly both indictment and conviction should have been vacated

by the reviewing court, but for which due to the State’s reliance on its procedural default
rules the Court refused to consider.

XX.

THE PRESENCE OF FRAUD
NEGATES USE OF THE ONE-PARTY CONSENT RULE
SUCH THAT THE CONTROL CALL RECORDING
USED TO INDICT/CONVICT PETITIONER
AMOUNTED TO A WARRANTLESS SEARCH IN
VIOLATION OF THE FOURTH AMENDMENT

The recording of oral statements by police has long been recognized as falling
under Fourth Amendment protections. SILVERMAN V. UNITED STATES, 365 US
505; KATZ V. UNITED STATES, 389 US 347 (1967). Despite the Fourth Amendment’s
prohibition on unreasonable searches in the absence of probable cause and in the absence
of a search warrant, both New York State and federal law have historically permitted
warrantless searches to proceed in recording oral statements when one party gives
consent. When it concerns government agents listening or recording a phone call both
state and federal government have recognized that only one party to the conversation can
give their consent without the awareness or consent of the other party. See PEOPLE V.
JACKSON, 125 AD.3D 1002; UNITED STATES V. WHITE, 401 US 745. A search

32

warrant is unnecessary when police have obtained one-party consent. PEOPLE V.
PHILLIPS, 55 AD.2D 661; PEOPLE V. ROSS, 118 AD.3D 1321.
Despite the One-Party-Consent exception, the use of fraud or other malicious
purpose by the consent-giver has been recognized to create a conflict of interest serving
to void out the one-party’s consent. “One-part ^consent,” wrote PEOPLE V. HOPKINS,
93 Misc.2d 501 (1978) “is prohibited when the party acts in any wav with intent to injure
the other party to the conversation in any wav. For example, publicly embarrassing him.”
Here, as testified at trial in the absence of a search warrant the NYS police
received one-party consent of the police agent to intercept and record the phone call she
made with the Petitioner that led to his arrest, indictment and conviction. Also at trial, as
described in detail in the CPL 440.10 motion and documented above, the police agent
used fraud and misrepresentation so as to injure the Petitioner in hopes that he would rely
upon the misrepresentation to create probable cause to justify his arrest and conviction.
So also was it argued that not only the police agent’s words, but the call itself was a ruse
entirely designed to fool the petitioner to lead to his arrest and conviction. These all
suggest injuries far beyond just public embarrassment such that under HOPKINS the oneparty consent was negated. Since one-party consent was nullified, the police were
required under the Fourth Amendment to obtain a search warrant prior to placing,
listening in on, and recording the call with the Petitioner which they did not do. It is also
worth noting the Second Circuit’s opinion in UNITED STATES V. ARCHER, 486 F.2d
670 (1973): “Governmental ‘investigations’ involving participation in activities that
result in injury to the rights of its citizens is a course that courts should be extremely
reluctant to sanction.”
A search warrant will only issue upon proof of probable cause, which here the
police did not have. The one-party-consent rule

also coupled with the fraudulent

misrepresentations - served to circumvent the Fourth Amendment Rule in hopes that
probable cause could be achieved merely by consent - that is a waiver of the Fourth
Amendment’s clear warrant requirement. Accordingly, here as elsewhere, the
Constitution’s unequivocal mandate that government searches not proceed in the absence
of probable cause is being circumvented by the one-party consent rule. The rule is being
abused to create probable cause where none previously existed.

33

It is not enough for police to claim that the control call was an undercover
operation. In her well-presented Stanford Law Review article, Breaking the Law to
Enforce It: Undercover Police Participation in a Crime, (62 STNLR 155) Elizabeth R.
Joh argues that to relieve the police of criminal responsibility when undercover
operations veer from lawful practice, that in every American jurisdiction, they must have
prior public authority. The police conduct must be authorized. LILY V. WEST
VIRGINIA, 29 f.2D 61 (4th Cir. 1928); WALKER V. COMMONWEALTH, 127
S.W.3D 596 (KY 2004); PEOPLE V. ROBERTS, 601 P.2D 654 (Colo. Ct. App. 2000). It
is not rocket science to realize that prior public authorization to perform a police search is
another way of describing a search warrant. In fact New York’s high court, the Court of
Appeals, tells us just that, the warrant requirement “is designed to interpose the detached
and independent judgment of a neutral magistrate” (PEOPLE V. HANLON, 36 NY.2d
549). The control call placed on the Petitioner in December 2014 related to conduct
alleged to have taken place four months prior. There was no necessity for the police to
have skirted the Fourth Amendment’s search warrant requirement - other than that they
knew the allegations lacked probable cause that an effort to receive the warrant would
have failed. Where the police have sufficient time to obtain a search warrant a
warrantless search will be found unlawful (PEOPLE V. SPINELLI, 35 NY.2d 77).
Accordingly, law enforcement’s failures to first obtain a search warrant before
!

placing the control call to the Petitioner when combined with the police agent’s use of
fraud and misrepresentation resulting in injury to the petitioner negated the one-party
consent rule such that the interception, recording, and use of the December 2014 call with
the petitioner amounted to an unreasonable search that was prohibited by the Fourth
Amendment. The conviction and indictment that were built upon need be vacated.

m

THE ONE-PARTY CONSENT RULE
RELIED UPON BY LAW ENFORCEMENT
TO MANUFACTURE EVIDENCE AGAINST THE PETITIONER
CAN NO LONGER LEGITIMATELY BE RECONCILED
WITH CONSTITUTIONAL JURISPRUDENCE

28 Joh also argues that a claim of public authority defense to justify warrantless undercover
operations also requires that the means used by police were “necessary.” This too is found wanting here.

34

As detailed above, New York State police circumvented the Constitution’s clear
warrant requirement to manufacture evidence against the Petitioner in the absence of
probable cause. They did so in reliance upon the One-Party-Consent Rule promulgated in
PEOPLE V. JACKSON; UNITED STATES V. WHITE; PEOPLE V. PHILLIPS; and
PEOPLE V. ROSS, 118 AD.3D 1321. As argued above, the one-party-consent rule leads
to constitutional abuses by police officers in that it waters down the warrant requirement
of the Fourth Amendment and allows police probes to overreach and advance without
judicial or legislative authorizations to the harm of civil liberties. Here, we argue that the
U. S. Supreme Court’s holding in GEORGIA V. RANDOLPH, 547 US 103 (2006), when
applied to phone calls, renders the One-Party-Consent Rule unconstitutional.
In GEORIGA V. RANDOPLH the Supreme Court recognized that a government
search cannot proceed on a dwelling over the objection of a tenant even in despite
another tenant’s consent. “A warrantless search of a shared dwelling for evidence over
the express refusal of consent by a physically present resident cannot be justified,” Justice
Souter‘s majority opinion held, “as reasonable as to him on the basis of consent given to
the police by another resident.” We argue that not unlike a shared physical space, that
persons engaged in the phone call need be recognized by the law as co-tenants and
therefore a warrantless police search (or interception) may not proceed over the refusal of
one party to the call.
Such a holding’s effect on reversing the One-Party-Consent Rule can be discerned
when applying GEORGIA V. RANDOLPH’S second holding, namely that when the
consenting co-tenant actively conceals a search from the other co-tenant so as to prevent
the co-tenant’s objection that the search is unreasonable in violation of the Fourth
Amendment’s prohibition (“the potential objector, nearby but not invited to take part in
the threshold colloquy, loses out ...so long as there is no evidence that the police have
removed the potentially objecting tenant from the entrance for the sake of avoiding a
possible objection” emphasis supplied). Here, the police agent who provided her consent
to the police to listen in on and record her phone call with the Petitioner did so without
providing him notice of her consent to the police, to the fact that the police were listening
in, that she was calling from the police barracks, or that the police had prepared her for
the call, told her what to ask, and was continuing to advise her as the call took place.

35

Under such facts we argue that the police agent’s failures to inform the Petitioner
amounted to active concealment to prevent the Petitioner from objecting to the police
search. In addition to amounting to fraudulent concealment of material facts, a tort under
New York law (WISCOV1TCH ASSOCIATES LTD. V. PHILIP MORRIS
COMPANIES, 193 Ad.2d 542), under the legal theory articulated in GEORGIA V.
RANDOLPH the police agent’s concealment amounted to a Fourth Amendment violation
under federal law. It follows that the one-party-consent rule and the 2014 control call
placed upon the Petitioner in reliance upon the rule should be declared unconstitutional.
XI

VERBAL OR OTHER OBSERVABLE SYMPTOMS
THAT A CRIMINAL SUSPECT IS MENTALLY UNSTABLE
IMPOSES A HEIGHTENED DUTY ON LAW ENFORCEMENT
AND JUDICIAL OFFICERS TO AVOID COMPELLING THE SUSPECT
FROM SERVING AS A WITNESS AGAINST THEMSELVES
The Fifth Amendment protects persons from being “compelled in any criminal

case” from being “a witness against himself.” Both, it and the 14th Amendment also
entitle persons to fair dealings via due process prior to being deprived of liberty. Respect
for a person’s Fifth Amendment rights has traditionally placed some restraints on law
enforcement and judicial actors in limiting how far they can go to obtain or enter into
evidence a suspect’s statements without undue influence or compulsion. In SPANO V.
NEW YORK, 360 US 315 (1959), the Supreme Court acknowledged that “law
enforcement have become increasingly aware of the burden which they share, along
without courts, in protecting fundamental rights of our citizenry, including that portion of
our citizenry suspected of crime (emphasis supplied).” We argue that such a burden
includes ending an interrogation with a criminal suspect - not just excluding such
testimony from prosecution proceedings - when the suspect shows or articulates
psychosis or mental instability that could lead to a false confession.

*50

Here, there is evidence to believe that the police knew prior to placing an
undercover “control call” that the Petitioner was on psychotropic medication and in the
25 In the United Kingdom, for instance, The Police Codes of Practice includes a “fitness to be
interviewed” requirement/safeguard to prevent against false confessions wherein a suspect’s psychological
or mental health vulnerabilities are exploited or particularly susceptible to coercive police tactics.

36

care of doctor after experiencing a nervous breakdown on account of these accusations.

However we need only focus on the verbal content of the phone call itself to argue that
police had sufficient notice and were properly apprised that the Petitioner was in a
vulnerable mental state. We argue that the fundamental fairness requirement of (due
process and substantive as well should have mandated that law enforcement end the call
to have met the government’s burden in deference to Petitioner’s constitutional rights.30
Throughout the 26-minute phone call, Petitioner (unaware that he is talking to an
undercover police agent, and unaware that police are listening in and recording the call)
volunteers that he is mentally unstable at the time. As the police agent was a person
known to him who was aware of his recent depression and who had offered to help
counsel him the phone conversation included numerous indicators that the Petitioner was
vulnerable to manipulation, many within the call’s first few exchanges:
• “I’m having some mental heath issues right now” (41*1 statement on the call).
• “I’m doing things that aren’t like me” (5th statement)
• “Mental health runs in my family. And I’ve been noticing symptoms” (9th
statement)
• “I went to see a counselor. I have a doctor. I have a diagnosis”(l6th
statement)
• “My mom has schizophrenia. ... And she sees things that aren’t real when
she’s unmedicated. ... and now I’ve been developing symptoms.” (lti*
statement).
• “I'm very suicidal.” (16th statement).
• “I’m taking medication now and they think its going to help me” (19th
statement)

In the same call, Petitioner identified and defined a medical disorder that he was being
treated for at the time which is known as the “doubting disease.” This combined with the
doubt expressed in the “admission” should have clued the police into the unreliability of
both the Petitioner’s statement and his mindset at the time as not being able to distinguish
between what was real from what was not:
“They’re diagnosing me with pure obsession disorder, which is, there’s
obsessions which come to me that are not reality based, and they’re not - not
who I am, and the mind flags them in your mind as important, because they’re
not - they’re not real, and they’re not - they go against your whole character
and your definition.”
30 The Sixth Circuit held in PETERSON V. HEYMES, 93 i F3D 546 (2019) that police may be sued when
feeding information to a suspect when they knew he was suicidal, depressed, and emotionally unstable.
37

Petitioner listed some of these irrational thoughts in his 22ntl statement) before
continuing:
“These things are not - they’re - they’re — it’s not who I am, And I’m
losing my mind. And two weeks ago I — I — I found this - they think its
pure obsession disorder. And I talked to my therapist ... I went to the
doctor, and he gave me medication, and I’m on my second week of it, and
I’m not supposed to see results for, like, at least four weeks. And its
causing my suicidal tendencies....”
Petitioner uses the word “delusion’ three times (12th, 20th, and 21st statement), all when
discussing the allegations attributed to him with the police agent, which in the 12
statement he defines as “not true, not real.”31
Despite the plethora of indications that the Petitioner was beyond vulnerable to
coercive tactics the state police did not terminate the call, but continued. This is not like
CONNELLY V. COLORADO, 479 US 157 (1986) where on his own initiative a man
suffering a schizophrenic episode approached a police officer and confessed to a crime.
Instead, here- despite ample evidence that the Petitioner was vulnerable to psychological
coercion - the police set a trap for the petitioner, and continued to interrogate him
including using fraud, feigned sympathy and other interrogation techniques condemned
as elsewhere in SPANO V. NEW YORK.
Chief Justice Rehnquist’s majority opinion in CONNELLY did however observe,
with a nod to SPANO, “that as interrogators have turned to more subtle forms of
31 Additional background material on the Petitioner’s mental state at the time of the call, his
subsequent hospitalizations and the trial court’s refusal to let him testify on these can be found in his CPL
440.10 motion on pages 64*72, 75-77,82-87 and 108-113.
32 As per Hugo Munstcrberg’s 1908 book, On die Witness Stand, there are three distinct types of
false confessions. Connelly seems to fit into die first category, namely the voluntary confession (“The selfsacrificing desire to exculpate others”). The second type, the coerced-complaint confession ("The untrue
confessions from hope or fear through promises and threats”) is die type mostly considered in judicial
opinions where through the detection of threats or promises courts tend to negate the voluntariness standard
as to exclude admissibility. Munsterberg’s third type of false confession is the type that warranted
condemnation from the Court in SPANO, but for which subsequent courts tend not to pay much heed-thus
demonstrating a national need in the area of police misconduct for a coherent jurisprudence and renewed
emphasis for law enforcement to tread lightly. This is the coerced-internalked confession “wherein the
confession is given with real conviction under pressure of emotional excitement or under the spell of
overpowering circumstances.” See Munsterberg, p.144-147.
This trifold classification of false confessions, with slight variation, is shared by Saul Kassin of John Jay
College of Criminal Justice. He describes internalized false confessions as a transition from an initial denial
to a state of confusion, self-doubt and acceptance brought upon by police interrogation tactics. See S.M.
Kassin & L.S. Wrightsman (Eds.) The Psychology of Evidence and Trial Procedures. London: Sage, 1985.
38

psychological persuasion, courts have found die mental condition of the defendant a more
significant factor in the ‘voluntariness’ calculus, ”33 Rehnquisfs CONNELLY holding.
argued that the test for unconstitutionality required not just a mental condition but police
coercion.34 Here, we argue that psychological abuse (like fraud) is coercion. We argue
that police had a heightened duty under both the due process clause and the prohibition
against self-incrimination (see HALL V. CITY, 697 F.3D 1059,2nd Cir. 2012) that once
there was clear and convincing evidence of the Petitioner’s diminished mental condition
that the continued questioning / recording / listening etc. constituted an unconstitutional
deprivation of Petitioner’s rights under the Constitution.
Statements produced by psychological coercion are not admissible in New York
State. “Psychological coercion may be any method or technique which is intended to, or
may play directly or indirectly upon the defendant, so as to instill in him a sense of fear,
foreboding, insecurity or other feelings which will induce, motivate or compel him to
waive his rights and respond to questions by law enforcement,” the state court defined in
PEOPLE V. TARSIA, 67 AcL2d 210, “Psychological coercions, while difficult to assess,
is a direct threat brought to bear by a sophisticated type of pressure.” On die federal level,
the Court frowned upon the police’s exploitation of a man’s mental weakness upon
learning of a man had mental health problems in BLACKBURN V. ALABAMA, 361 US
199(1960).
Unlike the cited cases the issue presented to this Court is not whether the
“confession” ought to have been excluded, nor judged as involuntary (nor can that issue
be effectively asked herein due to ineffective assistance of counsel). Rather the germane
issue here is whether the due process clause and the Fifth Amendment’s wording that
“No person shall be compelled in any criminal case to be a witness against himself’
places a burden - rather a limit - on law enforcement to cease action when an

35 The CONNELLY decision was decided in 1986. In 1994 a study of 137 police interrogations
observed in three North American police stations revealed drat interrogation tactics used included
confronting suspects with false evidence of guilt (30 percent), and undermining a suspect's confidence in
denial and guilt (43 percent) among other forms of questionable ethical forms of manipulation. Out of the
137 sample cases 64 percent made incriminating statements. Leo, R.A., Police Interrogations in America: A
Study of Violence. Civility and Social Change. PhD Thesis, Univ. of California at Berkley.
34 (“But this fact does not justify a conclusion that a defendant’s mental condition, by itself and
apart from its relation to official coercion, should ever dispose of the inquiry into constitutional
‘voluntariness’’’)

39

interrogation nears or equates to compulsion — and whether reasonable suspicion of a
criminal suspect’s diminished mental condition or state is sufficient warning that
questioning must cease. An affirmative answer would requite law enforcement to cease
interrogation and not proceed. An affirmative answer treats the Fifth Amendment as a
prohibition on government actors ftom compelling a person to serve as a witness against
himself/herself, not just whether to later exclude unlawful conduct’s use.
It is argued that a person undergoing psychosis or serious mental illness, or
undergoing a nervous breakdown and under the care of a doctor as here, is not
sufficiently in the full-frame of mind to make voluntary statements or detect and ward off
police predators, particularly when they operate stealthily with intent to harm [see
UNITED STATES V. BETTES, 229 F.$upp.2d 1103 (D.Or. 2002)]. Provided notice of
such a condition — as here — the burden ought to shift to law enforcement to cease the
interrogation for fear of coercive compulsion.
“The Supreme Court has recognized exceptions to the general rule that a suspect
must invoke his right to silence,” wrote the Southern District Court of New York in
UNITED STATES V. AUSTIN, 2020 WL 6155366 “under these circumstances the onus
shifts to the Government. It must inform the defendant of his right to silence and obtain
his knowing and voluntary waiver of that right, otherwise the privilege against self­
incrimination is said to be self-executing and the use of the suspect’s statements in the
prosecution’s case in-chief is barred.”
We argue that abuses can be prevented by clearly defining that interfacing with a
person with a known mental condition fits into one these exceptions. Additionally merely
providing Miranda Warnings and then proceeding with the interrogation may not be
enough when law enforcement interfaces with a person of a compromised mental state.
Due to the disability he or she may not even be able to process, let alone waive, those
rights clearly spoken. The only logical path, to preserve the just adherence to the Fifth
Amendment’s purposes of non-compulsion and due process, is that the only appropriate
action when law enforcement encounters a person struggling with mental issues is that no
interrogation may proceed.
Dated: 2 April 2021
Hudson, NY

*0

\

« I
l

Michael N. Kelsey, Appellant-PHuVjtiff Pro Se
40

]

!!
i

PRINTING SPECIFICATION STATEMENT

■i

Pursuant to 22 NYCRR 1250.8(j)
The foregoing brief was prepared on a computer. By information and belief it has been
typed as indicated:
Name of Typeface: Times New Roman
Point size:

12

Line Spacing: Double
The total number of words of Argument: 13.320
Dated: 2 April2021
Hudson, NY

Michael N. Kelsey
Appellant-Plaintiff Pro Se
16A4286 Hudson Correctional
50 East Court Street
Hudson, NY 12534

41

TABLE OF CONTENTS TO APPENDIX
N.B. The appendix index follows the same numbering of the prior Certiorari Petition;
Only exhibits and documents relevant to this petition have been included.
Appendix A6

. June 2020 Trial Court Decision of Petitioner’s CPL 440.10 Motion

Appendix A8

Mar. 2021 Appellate Court Leave Decision of CPL 440.10 Motion

Appendix A9

.... Petitioner’s February 2020 Brief Seeking Certiorari; # 20-7308

Appendix B5

--------- - - NYS Criminal Procedure Law 440.10

Appendix B6

.................NYS Criminal Procedure Law 60.45

Appendix B7

PEOPLE V. MARTINEZ, 26 NY.3D 196 (2015)

i!

Appendix C2.

Petitioner’s Leave Application protesting 440.10 Motion Denial

Appendix C3 .

............... Petitioner’s Writ of Error Corum Nobis Application

Appendix C6.

.. Petitioner’s Pro Se Suppl. Brief / Direct Appeal Supplement

Appendix C7.

............Correspondence Regarding Pro Se Supplemental Brief

Appendix CIO

.......................*.....................Petitioner’s CPL 440.10 Motion

Appendix Cll

........... Responses and Replies to Petitioner’s CPL 440 Motion

Appendix D1

...................................... Kelsey v. Rutledge lawsuit petition

Appendix D6 . ...

Petitioner’s Analysis of Founding Father’s Views on Appeal

Appendix D7 ....

•.................Kelsey v. Lewin, State Habeas Corpus Petition

Appendix D8 .,.,

............... *........................ Kelsey v. Duwe lawsuit petition

Appendix D10 ...

Petitioner’s Commission on Judicial Conduct Complaint #5

Appendix Dll

.Petitioners Commission on Judicial Conduct Complaint #2

Appendix D12 ...

........... Petitioner’s pre-sentence investigation report motion

xi

